<html>
<title> - OPPORTUNITIES FOR SPECIALTY CROPS AND ORGANICS IN THE FARM BILL</title>
<body><pre>[Senate Hearing 112-286]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-286

                   OPPORTUNITIES FOR SPECIALTY CROPS
                     AND ORGANICS IN THE FARM BILL

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                         NUTRITION AND FORESTRY

                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION


                               __________

                             JULY 28, 2011

                               __________

                       Printed for the use of the
            Committee on Agriculture, Nutrition and Forestry


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        Available via the World Wide Web: http://www.fdsys.gov/


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
71-635 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





            COMMITTEE ON AGRICULTURE, NUTRITION AND FORESTRY



                 DEBBIE STABENOW, Michigan, Chairwoman

PATRICK J. LEAHY, Vermont            PAT ROBERTS, Kansas
TOM HARKIN, Iowa                     RICHARD G. LUGAR, Indiana
KENT CONRAD, North Dakota            THAD COCHRAN, Mississippi
MAX BAUCUS, Montana                  MITCH McCONNELL, Kentucky
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
SHERROD BROWN, Ohio                  MIKE JOHANNS, Nebraska
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BOOZMAN, Arkansas
AMY KLOBUCHAR, Minnesota             CHARLES E. GRASSLEY, Iowa
MICHAEL BENNET, Colorado             JOHN THUNE, South Dakota
KIRSTEN GILLIBRAND, New York         JOHN HOEVEN, North Dakota

             Christopher J. Adamo, Majority Staff Director

              Jonathan W. Coppess, Majority Chief Counsel

                    Jessica L. Williams, Chief Clerk

              Michael J. Seyfert, Minority Staff Director

                Anne C. Hazlett, Minority Chief Counsel

                                  (ii)














                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Opportunities for Specialty Crops and Organics in the Farm Bill..     1

                              ----------                              

                        Thursday, July 28, 2011
                    STATEMENTS PRESENTED BY SENATORS

Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan, 
  Chairwoman, Committee on Agriculture, Nutrition and Forestry...     1
Roberts, Hon. Pat, U.S. Senator from the State of Kansas.........     2

                                Panel I

Woteki, Catherine, Ph.D., Undersecretary of Research, Education 
  and Economics, USDA, Washington, DC............................     5
Wright, Ann, Deputy Undersecretary, Marketing and Regulatory 
  Programs, USDA, Washington, DC.................................     3

                                Panel II

Abbett, Glenn, Manager, Abbett Farms, LLC, LaCrosse, Indiana.....    25
Bencal, Paul, Owner, Paul Bencal Farm, Ransomville, New York.....    22
Engelhard, Dennis, Owner, Engelhard Family Farms, Unionville, 
  Michigan.......................................................    18
Tait, Kim, Owner, Tait Farm Foods, Inc., Centre Hall, 
  Pennsylvania...................................................    20
Wingard, Charles, Director of Field Operations, W.P. Rawls and 
  Sons, Pelion, South Carolina...................................    27
Woolley, Robert, Owner, Dave Wilson Nursery, Hickman, California.    24
                              ----------                              

                                APPENDIX

Prepared Statements:
    Thune, Hon. John.............................................    40
    Abbett, Glenn................................................    42
    Bencal, Paul.................................................    52
    Engelhard, Dennis............................................    58
    Tait, Kim....................................................    62
    Wingard, Charles.............................................    65
    Woolley, Robert..............................................    74
    Woteki, Catherine............................................    80
    Wright, Ann..................................................    88
Question and Answer:
Stabenow, Hon. Debbie:
    Written questions to Ann Wright..............................   131
    Written questions to Catherine Woteki........................   119
    Written questions to Dennis Engelhard........................   106
    Written questions to Kim Tait................................   108
    Written questions to Paul Bencal.............................   102
    Written questions to Robert Woolley..........................   115
    Written questions to Glenn Abbett............................    98
    Written questions to Charles Wingard.........................   111
Hon. Pat Roberts:
    Written questions to Ann Wright..............................   139
    Written questions to Catherine Woteki........................   122
    Written questions to Dennis Engelhard........................   106
    Written questions to Kim Tait................................   109
    Written questions to Paul Bencal.............................   103
    Written questions to Robert Woolley..........................   117
    Written questions to Glenn Abbett............................    98
    Written questions to Charles Wingard.........................   112
Hon. Kirsten Gillibrand:
    Written questions to Catherine Woteki........................   125
Hon. Richard G. Lugar:
    Written questions to Ann Wright..............................   144
    Written questions to Catherine Woteki........................   127
Hon. John Thune:
    Written questions to Ann Wright..............................   145
    Written questions to Catherine Woteki........................   128
    Written questions to Dennis Engelhard........................   106
    Written questions to Kim Tait................................   110
    Written questions to Paul Bencal.............................   103
    Written questions to Robert Woolley..........................   117
    Written questions to Glenn Abbett............................    99
    Written questions to Charles Wingard.........................   113
Abbett, Glenn:
    Written response to questions from Hon. Debbie Stabenow......    98
    Written response to questions from Hon. Pat Roberts..........    98
    Written response to questions from Hon. John Thune...........    99
Bencal, Paul:
    Written response to questions from Hon. Debbie Stabenow......   102
    Written response to questions from Hon. Pat Roberts..........   103
    Written response to questions from Hon. John Thune...........   103
Engelhard, Dennis:
    Written response to questions from Hon. Debbie Stabenow......   106
    Written response to questions from Hon. Pat Roberts..........   106
    Written response to questions from Hon. John Thune...........   106
Tait, Kim:
    Written response to questions from Hon. Debbie Stabenow......   108
    Written response to questions from Hon. Pat Roberts..........   109
    Written response to questions from Hon. John Thune...........   110
Wingard, Charles:
    Written response to questions from Hon. Debbie Stabenow......   111
    Written response to questions from Hon. Pat Roberts..........   112
    Written response to questions from Hon. John Thune...........   113
Woolley, Robert:
    Written response to questions from Hon. Debbie Stabenow......   115
    Written response to questions from Hon. Pat Roberts..........   117
    Written response to questions from Hon. John Thune...........   117
Woteki, Catherine:
    Written response to questions from Hon. Debbie Stabenow......   119
    Written response to questions from Hon. Pat Roberts..........   122
    Written response to questions from Hon. Kirsten Gillibrand...   125
    Written response to questions from Hon. Richard G. Lugar.....   127
    Written response to questions from Hon. John Thune...........   128
Wright, Ann:
    Written response to questions from Hon. Debbie Stabenow......   131
    Written response to questions from Hon. Pat Roberts..........   139
    Written response to questions from Hon. Richard G. Lugar.....   144
    Written response to questions from Hon. John Thune...........   145


 
                   OPPORTUNITIES FOR SPECIALTY CROPS
                     AND ORGANICS IN THE FARM BILL

                        Thursday, July 28, 2011

                              United States Senate,
           Committee on Agriculture, Nutrition and Forestry
                                                     Washington, DC
    The Committee met, pursuant to notice, at 10:08 a.m., in 
Room G50, Dirksen Senate Office Building, Hon. Debbie Stabenow, 
chairwoman of the Committee, presiding.
    Present: Senators Stabenow, Casey, Klobuchar, Bennet, 
Gillibrand, Roberts, Lugar, Johanns, Boozman and Grassley.

HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE OF MICHIGAN, 
  CHAIRWOMAN, COMMITTEE ON AGRICULTURE, NUTRITION AND FORESTRY

    Chairwoman Stabenow. Good morning again. We are very 
pleased to be here today for the second portion of our hearing 
to focus on the status of specialty crops and the organic 
industries. In the 2008 Farm Bill, we made great strides in 
recognizing specialty crops and organic growers as important 
partners and contributors to a vibrant American agricultural 
economy.
    Through our efforts, we were able to establish the 
horticulture and organics title for the first time ever to 
support specialty crop growers, helping them with pest and 
disease prevention, organic research and trade assistance for 
growers hurt by new trade agreements, something critically 
important for asparagus growers in Michigan.
    It is amazing to think that it took until 2008 for fruits, 
vegetables, nursery products, flora culture to actually have a 
specific formal role in the Farm Bill, but that is now the 
case. I am proud to say these important crops are a part of the 
Farm Bill discussions and their place in the Farm Bill is here 
to stay.
    Specialty crop and organic growers are not only helping to 
supply healthy products to our schools, our families, our 
communities, but these farmers are also making a major 
contribution to the American economy. Sales of U.S. specialty 
crops top $65 billion annually with nearly 2 billion of those 
sales coming from Michigan alone.
    Organic sales also contribute to an overgrowing--reaching 
nearly 29 billion in 2010 and many new and beginning farmers 
are seeking out opportunities both in specialty crops and 
organic sectors, proving how crucial these efforts are to 
encouraging young farmers to begin farming.
    As our panelists will tell us, producing specialty crops 
continues to be a risky business. New and emerging pests and 
diseases continue to threaten the productivity of our farmers 
throughout the country and high input costs often mean tight 
margins and loaded resources. Specialty crop efforts that have 
been very successful have been the Specialty Crop Block Grants, 
the Specialty Crop Research Initiative. I know they have been 
critical in helping producers manage their risks and expanding 
opportunities as well.
    As the second most diverse agricultural state in the 
country, Michigan has some great stories to tell and I am very 
pleased that Mr. Dennis Engelhard is here today to share some 
of the challenges facing specialty crop growers in my state, as 
well as his experience working to improve dry bean varieties 
and provide new market opportunities that address America's 
nutritional needs.
    In addition to Mr. Engelhard, we have a very diverse group 
of producers from nearly every region of the country, I think, 
and every kind of operation and size this morning. We are also 
about to hear from two key officials from the Department of 
Agriculture who oversee the research, the marketing, pest and 
disease initiatives, as well as the National Organic Program.
    I would like now to turn the podium over to my good friend 
and ranking member, Senator Roberts. And I know that although 
Kansas is not generally thought of as a specialty crops state, 
I recently learned that the State has quite a surge in farmer's 
markets and I know you do have specialty crops and I know that 
you are very involved in promoting the Farmer's Market 
Promotion Program, as well as all the other diversity of crops 
in Kansas.
    And I might say as an aside, I am looking forward in the 
next month and coming as we do our second field hearing to have 
the opportunity to be in Kansas and see firsthand.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
                             KANSAS

    Senator Roberts. Madam Chairwoman, thank you for holding 
this hearing. Thank you for the opportunity to go to Michigan 
on our first hearing and learn firsthand for so many specialty 
crop growers just how important this whole endeavor is, not 
only to Michigan, but all over the country.
    We have been exploring Section 10 and I have been learning 
from staff just how important the program is to Kansas. As a 
matter of fact, I have a question of the witnesses to explain 
that. People think of Kansas as a model agricultural state, 
i.e., we are a lot more involved in a lot of other things.
    So I just appreciate your holding this hearing. I am 
looking forward to hearing the witnesses. Since I obviously 
held up the hearing, I think we better get to them and I have 
some questions for them. But thank you so much for holding this 
hearing.
    Chairwoman Stabenow. As I said, we are very pleased to have 
two excellent panelists with us. Yes. Yes, Senator Lugar?
    Senator Lugar. May I take this opportunity, to offer an 
introduction also to one of our witnesses?
    Chairwoman Stabenow. Absolutely. Please do.
    Senator Lugar. On the second panel, we will hear from Glenn 
Abbett, who is a second generation farmer from LaCrosse, 
Indiana. Glenn was born and raised in LaPorte County by his 
parents, Lou and Joan Abbett. Early on he knew he wanted to 
follow in his dad's footsteps and be a farmer, so he worked on 
the family farm while going to school.
    And after graduating from Purdue University with a degree 
in mechanical engineering, he joined his dad on the family 
farm. In the late 1990s, Glenn became the primary manager of 
the business and the Abbett family now farms 4,300 acres of 
commercial corn, seed corn, processed tomatoes, soybeans, 
processed green beans and wheat. Roughly 650 of those acres are 
processed tomatoes.
    Glenn and his dad have been growing tomatoes for Red Gold, 
Inc. for approximately 20 years. As a grower, Glenn has won 
many awards, including a prestigious Master Grower Award four 
times, which honors outstanding quality professionalism and 
industry leadership. Most recently, in 2009, Glenn won the Red 
Gold Stewardship award which recognized the grower who 
demonstrated exemplary leadership to maximize the potential of 
Indiana's agricultural industry.
    He has been married 16 years to Leslie. They have four 
children, one of whom traveled with him to be here today. 
Welcome Casey, the son. All of Glenn's children help on the 
farm in one way or another when they can. Glenn, like his 
father before him, has dedicated his life to farming and it is 
Glenn's greatest desire that one of his children will take over 
in the future. We are delighted to have Glenn and his son here 
with us today.
    Chairwoman Stabenow. Thank you so much. We are very much 
looking forward to his sharing his testimony with us.
    We will proceed now and welcome our two witnesses, and of 
course, we know you understand we will be happy to take 
whatever you have in writing and ask that you keep your 
comments to five minutes in terms of verbal comments so we have 
an opportunity for questions.
    Let me first welcome our first panelists, Ms. Ann Wright, 
who is the deputy undersecretary for marketing and regulatory 
programs at USDA. Prior to her appointment, she served as the 
senior policy advisor to Majority Leader Harry Reid on 
agriculture issues. She has also held a position as a policy 
analyst for the Consumer's Union and has worked with farmers 
and non-profit organizations at the National Sustainable 
Agricultural Coalition.
    So we welcome you, and also Dr. Woteki, Catherine Woteki. 
Dr. Woteki is the undersecretary for research, education and 
economics at the USDA. Prior to her appointment, Dr. Woteki 
served as global director of scientific affairs for Mars, 
Incorporated, where she managed the company's scientific policy 
and research on matters of health, nutrition and food safety. 
She also held several positions as dean of agriculture at Iowa 
State University and undersecretary for food safety at the 
USDA, deputy associate director for science and technology at 
the White House, and chair of the Food and Nutrition Board.
    And so we welcome both of you and we would ask Ms. Wright 
to proceed with your testimony.

 STATEMENT OF ANN WRIGHT, DEPUTY UNDERSECRETARY, MARKETING AND 
                   REGULATORY PROGRAMS, USDA

    Ms. Wright. Thank you. Chairman Stabenow, Ranking Member 
Roberts and members of the Committee, thank you for inviting me 
to appear before you today to provide an update on the work 
undertaken by USDA on Title X of the 2008 Farm Bill. My name is 
Ann Wright and I serve as deputy undersecretary for Marketing 
and Regulatory Programs at USDA. MRP's Agricultural Marketing 
Service and the Animal and Plant Health Inspection Service are 
the primary agencies with responsibility for implementing Title 
X.
    The overall farm economy continues to remain strong with 
U.S. agricultural exports, farm cash receipts and net farm 
income projected at or above previous record levels in 2011, 
with a crop value of roughly $57 billion. Specialty crops play 
an important role in contributing to the country's robust 
agricultural economy.
    As for the organic industry, they are viewed as the fastest 
growing sector of agriculture. According to industry 
statistics, U.S. sales of organic food and beverages have grown 
from $1 billion in 1990 to an estimated 26.7 billion in 2010.
    Title X of the 2008 Farm Bill represented the first time 
that a Farm Bill title was devoted exclusively to addressing 
the needs of specialty crop and organic growers. Knowing how 
important these programs are to the vitality of the industry at 
large, we have worked to make delivery of these programs a 
success. The Agricultural Marketing Service administers two 
important Title X grant programs, the Specialty Crop Block 
Grant Program and the Farmer's Market Promotion Program.
    The Specialty Crop Block Grant Program enhances the 
competitiveness of the specialty crop industry, including 
horticulture, through tailored projects that address state 
needs and priorities. Much of the program's success and 
importance is based on the fact that states and their growers 
can define and address priorities and respond to emerging 
issues and opportunities in a timely way.
    For example, the State of Michigan recently used block 
grant funds to increase participation of grape growers in the 
state's successful Michigan Agriculture Environmental Assurance 
Program. In Montana, the State is using block grant funds to 
develop a more economical method of potato production.
    While projects differ from state to state, they share the 
same goal of increasing the success of the specialty crop 
industry, keeping farmers farming and rural communities 
thriving. The other important AMS grant program in Title X is 
the Farmer's Market Promotion Program. This program improves 
and expands direct marketing opportunities for growers, such as 
Farmer's Markets, community-supported agriculture programs and 
agri-tourism activities. The program is funded at $10 million 
in Fiscal Year 2011 and 2012.
    AMS administers the National Organic Program. For this 
fiscal year, the NOP is funded at $6.9 million. Reauthorized in 
Title X of the Farm Bill, the National Organic Certification 
Cost Share Program makes funds available to organic producers 
and handlers to help cover or defray the cost of certification. 
Organic certification is an annual and sometimes costly process 
which can create barriers for entry for small and mid-sized 
farmers and ranchers.
    Through the cost-share program, Congress has recognized the 
opportunity to support beginning, small and mid-sized producers 
who make up a significant percentage of this growing industry. 
AMS plays a critical role in administering Section 32 funds 
which are used to purchase non-price-supported surplus 
commodities for distribution to federal nutrition programs.
    Annually we purchase approximately $1 billion in 
commodities for distribution to various nutrition assistance 
programs such as our National School Lunch Program, food banks 
and soup kitchens.
    The 2008 Farm Bill directed USDA to nearly double the 
Section 32 specialty crop purchases required in the 2002 Farm 
Bill and in 2011, AMS plans to purchase over $400 million. The 
2008 Farm Bill gave APHIS two additional tools to protect 
agriculture and specialty crops. Both programs, the Plant Pest 
and Disease Management and Disaster Prevention Program and the 
National Clean Plant Network, have proven to be highly 
effective and widely supported by stakeholders and industry.
    Through the Plant Pest and Disease Management and Disaster 
Prevention Program, or Section 10201, APHIS has partnered with 
numerous states, tribes, universities and other communities to 
strengthen and expand the scope of APHIS' pest and disease 
prevention activities. While many see pests as just that, 
pests, to America's specialty crop growers they can mean 
serious business disruptions.
    For example, if left undetected, the discovery of a plant 
pest or its vector on a wine grape orchard in New York or a 
citrus grove in Texas can escalate into a domestic and 
international quarantine, loss of market opportunities and 
costly mitigation and eradication interventions.
    Section 10201 allows APHIS to address emerging pest and 
disease outbreaks in those critical early states, hopefully 
resulting in far less economic impact to growers and 
communities who depend on them.
    The second Farm Bill program, the National Clean Plant 
Network, develops and produces clean propagative plant material 
so that should plant pest or disease strike, clean plant 
material is available to states, private nurseries and 
producers. Essentially it is an insurance policy that 
guarantees that there will be a fresh stock of disease-free 
plants.
    AMS and APHIS undertake numerous activities to facilitate 
the competitive and efficient marketing of U.S. agricultural 
products, as well as to protect and safeguard critical sectors 
of U.S. agriculture. I hope that this testimony and the 
subsequent question and answers will prove useful to the 
Subcommittee as you undertake your work on the next Farm Bill. 
Thank you.
    [The prepared statement of Ms. Wright can be found on page 
88 in the appendix.]
    Chairwoman Stabenow. Thank you very much. Dr. Woteki.

  STATEMENT OF CATHERINE WOTEKI, UNDERSECRETARY OF RESEARCH, 
                 EDUCATION AND ECONOMICS, USDA

    Ms. Woteki. Good morning Chairwoman Stabenow, Senator 
Roberts, Senator Lugar, Senator Johanns. It is a real pleasure 
to be testifying before you today about some of the recent 
advances in specialty crops research, as well as our research, 
education and extension activities that relate to organic 
farmers as well. I have a longer written testimony that I have 
submitted for the record and I will be summarizing those 
comments.
    As you already made reference to Chairwoman Stabenow, in 
your opening remarks, the Specialty Crops Competitive Act 
provided us with a definition of specialty crops and the 2008 
Farm Bill provided some new and very important provisions, not 
only in Title X that my colleague has been describing, but also 
in Title VII, the research title for which I have 
responsibility for implementation. In that title we created the 
National Institute of Food and Agriculture, as well as 
additional programs that support specialty crops and organics 
through research, education and extension.
    The approach that we have taken for specialty crops and 
organic agriculture actually go beyond the very specific 
provisions that relate to specialty crops. We have taken a 
multi-agency, multi-disciplinary approach that involves all of 
the four agencies in the research, education and economics 
mission area. And as you pointed out, specialty crops and 
organic agriculture are very important. The 2007 census of 
agriculture valued specialty crops at $67.4 billion. And while 
they only represented 12.7 percent of harvested crop acreage in 
2007, they were almost 47 percent of U.S. crop value and 
employed nearly 1.4 million people.
    So another interesting development out of the census of 
agriculture was the finding that beginning farmers are more 
likely to be involved in specialty crop production and we are 
also aware that the largest segment of the emerging organic 
agriculture sector is in specialty crops.
    The 2008--I am sorry, the 2004 Specialty Crops Act also 
established a subcommittee within the National Agriculture 
Research, Education, Extension and Economics Advisory Board 
that has recently held hearings in Michigan just the last week 
and heard from representatives of Michigan specialty crop 
industry. The committee is now working to compile its findings 
and I am awaiting their report and that will also be provided 
to the Committee.
    I would like to just briefly now highlight some of the 
findings that are described in greater detail in the written 
testimony, but with respect to the research programs that we 
support in the university community, the Specialty Crop 
Research Initiative has in the 2008 Farm Bill been authorized 
at $230 million for five years, from 2008 to 2012, and it is 
dedicated to developing and disseminating science-based tools 
and technology. Even though the research projects that are 
funded under this have not yet reached completion, growers and 
consumers are already benefitting from this investment.
    And just two brief examples. Water availability, it is 
really critical for agricultural use and one project in 
California has the potential to reduce water in grape 
production by a range of 150 to over 300 billion gallons a 
year. This amount of water would be the daily household water 
needs of over six million Americans for an entire year, so very 
major savings.
    Second example is in the tree fruit crops. Harvesting 
accounts for about half of production costs and one of the 
grants developed an augmented harvesting system for apples that 
is also applicable for peaches, apricots and nectarines. It has 
been developed. It is now in the commercial testing phase and 
that full-scale field experiment is now in progress and 
expected to demonstrate at least a 25 percent increase in 
worker productivity and reduction in fruit bruising and leading 
to increased quality.
    NIFA also offers the Organic Agriculture Research and 
Extension Initiative, specifically supporting organic 
agriculture through the integration of research and extension 
activities. These grants programs for this year are currently 
under review and the program is expected to fund $19 million in 
this year.
    Our Intramural Research Programs reflect a long-term 
investment. For example, the Agriculture Research Service 
support specialty crops through its critical germplasm 
collections. These are resources for crop breeders. The 
statistics agencies, the Economics Research Service and the 
National Agricultural Statistics Service, provide very 
important data and analyses that are also important for the 
specialty crops and the organic agriculture.
    So from our perspective, the pathway forward is very clear. 
We are looking to leverage the USDA science investment for the 
continued success of the specialty crops and organic industry.
    In this time of fiscal austerity, we are committed to 
maximizing the return on the investment of federal dollars in 
science, education and extension activities. We are working to 
coordinate across the agencies with their stakeholder 
engagement and we are committed to conducting the foundational 
pre-commercial scientific research to develop educational tools 
based on that and provide them to farmers by using our 
cooperative extension network.
    I am going to be pleased to answer any questions you may 
have.
    [The prepared statement of Ms. Woteki can be found on page 
80 in the appendix.]
    Chairwoman Stabenow. Thank you very much, to both of you. 
And before proceeding with questions, I know that Senator 
Johanns wanted to make a comment.
    Senator Johanns. Madam Chair, thank you very much. And I 
know this is out of order, but I do have to leave for another 
meeting, so I really thank you for the opportunity to say a 
word about a very, very good friend who I just want to offer my 
best wishes to, and that is Dave Johnson, on his impending 
retirement.
    When I was secretary of Agriculture and we were drawing 
ideas and putting them together for a proposal to Congress 
about some changes in the Farm Bill, it was Dave and a very 
small group at the USDA that actually put pen to paper. And his 
work ethic, his knowledge of ag policy is just literally 
unrivaled and I could not have done what I did without his 
assistance.
    I want to also say I cannot imagine doing a Farm Bill 
without Dave Johnson. How does that happen? He has been a part 
of the Farm Bill process on four different occasions, which is 
a significant amount of history. Dave leaves with my 
appreciation, my gratitude and my prayers and best wishes for 
everything that is ahead of him and I thank you for this 
privilege. It was very important to me personally that I say a 
few words about Dave. Thank you.
    Chairwoman Stabenow. Thank you, Senator Johanns, and 
Senator Roberts had indicated earlier his comments and we all 
share in that. And Dave, do not get too far away. We will have 
to see if we can get you back to help with the Farm Bill. So 
thank you very much for those comments.
    We will proceed now to questions. Let me start, Dr. Woteki, 
about research and innovation, which is so important, a very 
important tool for our farmers as they're managing risks to be 
successful. We all know that a wide range of research is 
needed.
    My concern is that despite the need, agricultural research 
continues to lag behind other research funding. In fact, there 
are over $400 million in expiring programs in the research 
title, including the Specialty Crop Research Initiative, and we 
have lost over $130 million due to the elimination of the 
Congressionally-designated projects, which we have dubbed 
earmarks.
    We have changed that process. We are not doing that 
anymore, and yet, that has been a primary way that we have 
provided dollars for universities when I think of Michigan 
State University in Michigan. And so we need to find other ways 
in which we can come together to be able to address that as 
this process has changed.
    So I wondered if you might speak to how your agency is 
balancing the increased demand with reduced funding, any 
thoughts that you would have about how we need to move forward 
in changing the process around research to make sure that we 
are focusing particularly on the real world impacts for 
farmers.
    Ms. Woteki. I think that question hits on one of my central 
concerns, and that is that at this point in time, with all of 
the challenges that are facing farmers in the U.S., the 
provision of new technologies that are going to help them be 
successful is extremely critical.
    Those new technologies come out of research. They come out 
of developmental activities that occur in the private sector 
and that build on the kind of foundational research findings 
that come from the intramural and the extramural research 
programs that are supported at USDA. I do think it is extremely 
important that attention be given to the very important role 
that the investment in research and extension play in 
agricultural productivity.
    Just this week, the Economics Research Service has issued a 
report that will make available to the Committee, that projects 
out to the year 2050 what the effects will be on agricultural 
productivity under three different budget scenarios. One would 
be maintaining at constant dollars the current investment. The 
second scenario is assuming that the agricultural research and 
extension investment keeps up with inflation, and that 
assumption is that it would lead to an increase in the level of 
funding of 3.7 percent per year.
    And the third scenario is 1 percent additional growth on 
top of that, so a 4.7 percent increase. And it projects out 
what the effects are going to be on agricultural productivity. 
At the constant dollar approach, we will not be able, under the 
projections, to meet the demands for food in the United States. 
Our agricultural exports would go down.
    So to your point, there are emerging some very important 
analyses that I think will help to inform your viewpoints, the 
Committee's viewpoints about the necessity for maintaining 
these investments in agricultural science, our extension 
programs, as well as higher education, because we need to be 
training the students that are going to continue this research 
and education activity.
    Chairwoman Stabenow. I could not agree more. Ms. Wright, if 
you could speak to what is a major concern for specialty crop 
growers, and that is pest and disease problems. You have spoken 
to that already, but we have a number of different issues in 
Michigan, the brown Marmorated stink bug and things with funny 
names that are not funny actually, to farmers, the Spotted Wing 
Drosophila and bugs that are having major impact on producers.
    Obviously, prevention, early detection is very important. 
This goes back to partnership with research and so on on how we 
are going to address this. But it is my understanding that in 
2011 the request for funding for plant pest and disease 
management and disaster prevention, the request, the need was 
$125 million, nearly three times as much as the funding that 
was available.
    And so could you talk about how you determine your 
priorities in funding as it relates to the states and projects, 
given the tremendous need and what we are hearing, particularly 
from our specialty crop growers?
    Ms. Wright. Thank you for the opportunity to talk a little 
bit about some of the challenges that we at the department are 
facing when it comes to doing more with less. I think across 
the department, we are taking an approach that was outlined by 
Undersecretary Woteki when it comes to better understanding how 
we implement our programs at different funding levels.
    I think within APHIS we are looking hard at our core plant 
and protection programs and trying to better understand where 
those dollars that are being spent and allocated are being 
effective and where with some of our ongoing disease management 
programs we are seeing we have to cut back.
    And so we are doing that kind of looking at where dollars 
can be used most efficiently in our battle against pest and 
diseases and where we can target dollars to address new and 
emerging diseases more effectively. So I think we are able to 
do that and we are feeling comfortable that we are not leaving 
the industry at risk under any one of those scenarios. I think 
some of the programs that I outlined and that we are talking 
about here today that are new to the Farm Bill are helping in 
that effort and so moving forward we will continue to stay 
focused on keeping the industry strong.
    Chairwoman Stabenow. Thank you very much. My time is more 
than up. I will submit some questions to you later about some 
of what is happening at the borders in Michigan, as well. We 
have--two weeks a new--the customs checkpoint in Port Huron 
found a new type of beetle, the Capra beetle. It is one of a 
number of different challenges we have had at the border in 
terms of beetles coming in on wood and trash and so on.
    So continue to work with you on those areas, because we 
have a number of different challenges in this area and we need 
to work with APHIS on. So thank you. Senator Roberts.
    Senator Roberts. Thank you, Madam Chair. The department 
obviously plays a very prominent role in bringing plants to 
market that deliver multiple benefits to farmers and consumers. 
It's important for the department to maintain a leadership role 
in the review process outlined in the coordinated framework 
between the Department of Agriculture, FDA and the EPA. And I 
appreciate that new products have been approved this year, but 
I am concerned and I think most on the Committee are as well, 
about the overall length of time that the process is taking.
    Would you comment on the USDA's role in the coordinated 
framework and the time frame for the review of the new products 
and having said that, if you really do not want to take time to 
answer it now, by a written response after the hearing is just 
fine. But I think it is terribly important in regards to the 
length of time that it is taking.
    Would you comment?
    Ms. Wright. Thank you, Senator Roberts. I want to make sure 
I understand your question. You are talking about the 
regulatory process that APHIS oversees when it comes to 
biotechnology products?
    Senator Roberts. Yes. Yes, ma'am.
    Ms. Wright. We would be happy to submit to your staff some 
of the long-range plans or at least Fiscal Year 2011 plans we 
have in place for moving products forward, moving decisions on 
products forward.
    The secretary has emphasized the importance of improving 
efficiencies around our regulatory process so that we can in a 
timely way put together important environmental documents, as 
well as regulatory justifications for our decisions that are 
defensible and that stand the test of time, and do that in a 
way that we are supporting the industry and moving technology 
forward. That is something that this administration is 
supportive of and the secretary of Agriculture is supportive 
of.
    Senator Roberts. I know the president issued an executive 
order January 18 asking all agencies to submit a cost benefit 
study or to take a look at all of the regs that they have been 
promulgating and future regs. There are a few loopholes that we 
have tried to do in a bill that I have introduced to take those 
loopholes and to codify the president's executive order.
    He deserves a lot of credit for doing that and I know the 
department is doing its best to do exactly that, and that you 
cannot go anywhere today in farm country, or for that matter, 
anywhere without somebody standing up and saying what on earth 
are you doing drowning this in regulations that do not make 
sense or they might put me out of business. But thank you for 
that and we will look forward to that report.
    Now, let's see here, back to specialty products. 
Specifically the plant pest and disease management and disaster 
prevention program, you have mentioned this program is widely 
supported by industry. It is over subscribed. Can you provide 
us with further information about the program, specifically in 
addition to the 50 million funding allocated in Fiscal Year 
'11? Congress appropriated another 248 million for pest disease 
prevention, eradication and mitigation.
    Now, my question really is, how does this program differ 
from the funding that Congress appropriates annually for pest 
and disease eradication and mitigation? Is there some 
duplication here that should be addressed given the current 
realities of the budget situation, and if so, how do you 
recommend we address?
    Ms. Wright. Thank you again for the opportunity to talk 
about some of these important programs. I think the section 
10201 program, which was authorized by Congress, outlined sort 
of six priorities that kind of govern or direct APHIS in their 
approach to administering that $50 million. And the ultimate 
goal, I think, is to engage the states around the surveillance 
and detection and rapid response to some of the threats to 
specialty crops in a way that we save dollars over the long 
run.
    So we are putting in place an infrastructure that actually, 
hopefully----
    Senator Roberts. Why don't you include that in the 
information that you are going to provide the Committee and I 
am going to skip over here some other questions that I will 
submit for the record and move on to Undersecretary Woteki.
    Too many questions. Are there any funds available through 
Section 32 to address the disaster we are going through with 
the mid-west floods and the drought? And I'm asking 
Undersecretary Wright. What other resources are available at 
USDA? We are burning up out there, but we are--it is as bad as 
it was in the thirties.
    Ms. Wright. The secretary does have the authority to 
transfer Section 32 funds to address disaster assistance and 
there are funds in the account right now.
    Senator Roberts. Okay, I appreciate that. I will get in 
touch with Tom and you can as well.
    Undersecretary Woteki, thank you for the work you do. I 
appreciate your partnership and your cooperation. I know I am 
over time 30 seconds, but that is the way it goes. Feel like I 
was in the tunnel there with traffic.
    The State of Kansas and Kansas City University were 
selected to be the home of the new national bio and agri 
defense facility and I know that you are very familiar with 
that, that is, the Department of Homeland Security is building 
to replace Plum Island. Our state has offered up the use of the 
Bioresearch Institute, the BRI--that is a level three lab--to 
begin shifting research from Plum Island to the new Kansas 
location. Kansas has also offered up cost share money to help 
the department expand its research in specific disease threat 
areas.
    Can you tell me where we are in the process of beginning to 
transfer this research to the new location, also take advantage 
of the cost share Kansas has said it will provide, and where 
are we in completing a memorandum of understanding with Kansas 
State and the State of Kansas on this front?
    Ms. Woteki. Thank you, Senator Roberts, for those questions 
about what is an extremely important facility, both for our 
research programs as well as for the programs that APHIS 
administers with respect to protecting our livestock from 
animal diseases that occur in foreign countries, but are not 
yet here in the United States.
    We are working very closely to develop a plan for the 
transition of our research programs on our part and APHIS' 
programs from Plum Island into the new facility that will be 
built at Kansas State University to replace Plum Island. We 
would be happy to meet with you, share those plans, where they 
stand right now.
    As I think you have been briefed and your staff has been 
briefed, we are currently working on a site-specific risk 
assessment, the second of these that will be completed in 
January of next year and is the subject of a review by the 
National Academy of Sciences.
    Senator Roberts. You have been very helpful in that, in 
providing information to the NAS, which I think was, quite 
frankly, rather sophomoric in their approach and in terms of 
accurate science. We met with the panel, we meaning Senator 
Brownback. He is now governor. And it was a little bit beyond 
me in terms of what they reached.
    But the Congress and the House has approved the money to 
start this project. In the meantime, we need to get people 
moving and get this project going. And so it is the memorandum 
of understanding that I am really interested in and if you 
could provide our office with that I would greatly appreciate 
it.
    And thank you so much for your help in the understanding of 
how critical this is in regards to the food security of the 
country. And my time is way over time, Madam Chairwoman, so I 
will cease and desist.
    Chairwoman Stabenow. Thank you very much. Senator 
Gillibrand.
    Senator Gillibrand. Thank you, Madam Chairwoman, and thank 
you, Mr. Ranking Member, for your excellent questions. We 
enjoyed them.
    I would like to address first with Deputy Undersecretary 
Ann Wright. I understand you are taking the lead in the Healthy 
Food Financing Initiative at the USDA. That is one of the 
issues that I have really taken a prominent role in the Senate 
on because I think it is very important that we fully fund 
these initiatives in the appropriation process, both in the '11 
and '12 budgets.
    Additionally, I am the lead sponsor of a bill called 
Healthy Food Financing Bill that will place full authority 
under the USDA to implement the essential program to solve our 
food desert problem. Therefore, I want to talk to you about the 
food desert map locator that you released on the USDA.
    Now, as it is currently functioning, it is not actually 
addressing major food deserts in New York City because of the 
nature of how it considers distance. Now, New York City is 
unique because we have food deserts, significant food deserts 
in Harlem, Bronx and Central Brooklyn, parts of Queen and 
Staten Island. And in New York, we have growing issues of 
childhood obesity, of Type II diabetes, cardiovascular disease, 
even in young children. And so we have to solve this food 
desert problem.
    So I would like to know how you are addressing that problem 
in the program currently, because we do not have transportation 
networks that reach to all markets and people do not drive in 
New York City. They often take public transportation, and for 
seniors, they cannot necessarily carry groceries long distances 
and walk to the local market.
    So what are you going to do to fix this problem?
    Ms. Wright. Thank you for that question and thank you for 
your leadership on this issue; it is recognized and very much 
appreciated.
    When USDA, the Department of Treasury and Health and Human 
Services began their work on trying to better understand food 
deserts or communities across the country that did not have 
easy access to health food options, we were very much 
challenged to come up with a definition and a tool that 
addressed needs nationwide in both rural and urban communities.
    And we are increasingly aware of where this tool and this 
definition failed to capture some of the nuances of cities, 
densely populated areas. And I think two things, one we stay 
open, moving forward to working with cities like New York City 
that have invested heavily in better understanding their 
populations with groups across the country who are developing 
their own data sets and mapping tools to improve what we can 
offer.
    But we also want to be very clear that our definition and 
our map are not determinants of eligibility. What we are 
looking for are ways that communities are addressing the 
individual needs of their community, whether you are New York 
City or whether you are a small rural town. And we want to make 
that clear and we will be doing that.
    We are providing a frequently asked questions document on 
the Economic Research Service website and we will be reaching 
out to stakeholders and local communities and governments 
around the country to make that clear.
    Senator Gillibrand. Well, I hope you will change the 
website still, because it is really important, because so much 
of this is about awareness and we want to be able to track 
grocery store chains, other important participants in solving 
the problem to focus on these inner city areas that really you 
cannot buy Whole Foods fruits and vegetables at an affordable 
rate for some of these communities.
    So I urge you to at least put some discretion into your 
model so the human mind can intervene and say well, this is 
clearly a food desert, even though our model does not track it. 
I think it is important for educational purposes and for 
awareness that it is very obvious to everyone that these food 
deserts are located still in New York City.
    Ms. Wright. Thank you.
    Senator Gillibrand. Thank you. Second point, New York City 
is home to the highest volume produce market in the country. We 
have this place called the Hunts Point Terminal Produce Market. 
It has 3,600 employees, an estimated annual revenue of $2 
billion. It serves as a spot market for growers all across the 
country and with access to 23 million residents in the New York 
City metropolitan area, a significant core of the country's 
population is served by this market.
    So I am wondering if USDA's contemplating using its 
resources to help fund the infrastructure necessary to widely 
distribute specialty crops.
    Ms. Wright. I believe that the agricultural marketing 
service staff who do a lot of work on our food hub issues are 
meeting with some of the folks at Hunts Point this week to talk 
about opportunities and to explore where we can be helpful in 
growing that market.
    Senator Gillibrand. Thank you. And then for Undersecretary 
Woteki, just one question. We have heard from a lot of our 
organic producers that some of the USDA staff are actually 
unfamiliar with organic practices and programs or have certain 
biases against these practices, making it hard for organic 
producers to come to their local FSA or NRCS offices for help.
    How has the USDA worked to educate its field staff to 
better understand the needs of these producers?
    Ms. Woteki. First of all, thank you for bringing this to my 
attention. I did not realize that we were having these 
problems. We will certainly look into it.
    There are a wide variety of backgrounder information that 
is available that we can make available to those field offices 
about the importance of this very growing sector of 
agriculture, so we will look into that.
    Senator Gillibrand. It is a very significant economic 
opportunity, not only for New York, but for the country. 
Organic products currently make up 4 percent of all food sales 
and organic fruits and vegetables up to 12 percent of the U.S. 
fruit and vegetable market. So we want to continue to look to 
the organic market as a revenue producer for our economy and 
give those producers as many resources as necessary to continue 
to grow those markets.
    Ms. Wright. If I might take a stab at answering that 
question. I do know that we have entered into a cooperative 
agreement with a non-profit that is doing training of NRCS 
staff across the country and they have developed a curriculum 
to do that. And we are looking into a online ag learn program 
that will educate USDA staff in organic production practices.
    Senator Gillibrand. Perfect. Thank you so much, both for 
your service and your dedication.
    Chairwoman Stabenow. Thank you very much. Senator Lugar.
    Senator Lugar. Secretary Wright, as we've discussed the 
Farm Bill in 2007 once again, we came up against the fact that 
for what were good reasons at the time during the Franklin 
Roosevelt Administration there were restrictions on what could 
be planted on how many acres on various farms. And in 2007, I 
introduced what was named the Farm Ranch Equity Stewardship and 
Health Act, the FRESH Act, which would provide a true insurance 
based safety net for all farmers regardless of what did they 
grow.
    That particular act was not successful, although we had a 
varied discussion of it in terms of modification of those kinds 
of restrictions. I have re-introduced the Farm Flexibility Act, 
and this legislation would permit producers to grow fruits and 
vegetables for processing while maintaining their historical 
base acres. This is one small step in liberating this decision 
making.
    I do have an opinion about that, or the importance of that, 
and I raise it because it is a source of difficulty for 
specialty crop farmers in my home state of Indiana. Whether 
they are producing tomatoes or apples or what have you, they 
run up against these restrictions that really date back to the 
1930s.
    Would it be helpful if they were liberated?
    Ms. Wright. Thank you, Senator Lugar. Well, as you know, 
the marketing regulatory program mission area does not 
administer that flex pilot that was authorized in the last Farm 
Bill, but I am aware of it and I know that our staff at FSA has 
been doing outreach in those seven states that are part of the 
pilot and trying to encourage participation.
    I do know that the Economic Research Service issued a 
report early this year looking at some of the challenges of 
that pilot and will allow my colleague here to address that.
    Senator Lugar. I would welcome that comment by Dr. Woteki.
    Ms. Woteki. Well, as Undersecretary White has already made 
reference, the Economic Research Service did earlier this year 
produce a report on the effects of this pilot program. It 
demonstrated very small. They used the term ``modest effects.'' 
We would be happy to share those results with you if you would 
like a briefing on it, to provide it to you as background.
    Senator Lugar. That would be helpful if you would brief our 
staff on those findings and that will at least make our 
discussions more informed as we proceed.
    Ms. Woteki. Certainly.
    Senator Lugar. Let me just ask another question, Dr. 
Wright. In the 2008 Farm Bill, we amended the Farmer's Market 
Promotion Program to include the so-called agri-tourism 
promotion as a category for eligible funding. We provided $33 
million in mandatory funding for five years.
    Could you discuss the status of that program and what has 
proceeded under it?
    Ms. Wright. The program this year and next year will be 
administering $10 million in competitive grants and what I can 
do for you is to get you a list of those grants so that you can 
see and we can see where there has been an uptick or an 
increase in demand for efforts in and around agri-tourism.
    It definitely is a program that tries to support direct 
marketing activities and historically has been seen as a 
program that supports farmer's markets. And I think there is 
growing interest and growing awareness in other opportunities 
outside of farmer's markets, which includes agri-tourism.
    But if you would allow, we will get you a report that 
outlines some of those activities that have been funded that 
are specific to agri-tourism.
    Senator Lugar. That would be helpful. I would be delighted 
to have both reports in regard to my first question as well as 
the second.
    Ms. Wright. I am sorry; did I not answer both questions?
    Senator Lugar. No, you did answer the first one by 
indicating that a survey had been held in seven pilot states 
and what have you. And so we will take a look at that one also.
    Thank you very much. Thank you, Madam Chair.
    Chairwoman Stabenow. Thank you very much. Senator Casey.
    Senator Casey. Madam Chair, I think I will submit questions 
for the record in the interest of time because I have an 
important introduction on the second panel.
    Chairwoman Stabenow. Yes, we are well aware of that and we 
will turn to you at the appropriate time.
    Senator Casey. Thank you.
    Chairwoman Stabenow. Senator Grassley.
    Senator Grassley. I have no questions, Madam Chair.
    Chairwoman Stabenow. Well, thank you very much. Well, we 
thank both of you very much. We appreciate your leadership and 
you both hold very important positions and we look forward to 
continuing to work with you as we develop the next Farm Bill, 
as well as focus on an ongoing basis on the issues that you 
oversee. So thank you very much.
    [Pause.]
    Chairwoman Stabenow. Well, welcome. We are so pleased that 
all of you are here with us today and we very much value all of 
your input this morning.
    Let me begin introductions. I know colleagues have 
introductions that they would like to make as well, but first 
let me start our first witness. Mr. Dennis Engelhard is from 
Michigan--and it is so great to see you again--owner of 
Engelhard Family Farms in Unionville, Michigan, where he grows 
pulse crops and wheat and serves as the president of the U.S. 
Dry Bean Council and is a member of the Michigan Dry Bean 
Committee and the Tuscola Farm Bureau. Very much appreciate 
your being here today.
    And also, I am going to turn now to Senator Casey for our 
next introduction.
    Senator Casey. Thank you, Madam Chair. I am honored to be 
able to introduce Kim Tait from Pennsylvania. Kim, I did not 
have a chance to say hello to you today, so I am going to 
pretend my arm can reach down there and say hello. I did not 
have a chance to do that between--I should have done it between 
the panels.
    But we are grateful that Kim is with us today. I met Kim in 
2007. We had a meeting in Pennsylvania among a number of women 
who are playing significant and very important roles on farms 
in Pennsylvania.
    Kim is from both Centre Hall, Pennsylvania, and that is 
within Centre County. One of the last times we spoke was in her 
home area. Kim is an organic farmer and has had success as a 
business woman as well as a farmer. She has a wide range of 
certified--or I should say, she operates Tait Farm Foods where 
she grows a wide range of certified organic fruits, vegetables 
and green house projects.
    Her operation includes a community-supported agriculture 
product, a value added facility and on-farm retail store and 
several education and research partnerships. She serves on an 
agricultural advisory committee that I set up to help me better 
understand some of the challenges we face in agriculture. She 
is a founding member and past vice president of the 
Pennsylvania Association for Sustainable Agriculture.
    Kim, we are grateful you are here. We are looking forward 
to your testimony and we are of course proud that a 
Pennsylvanian is on this panel. Thank you very much.
    Chairwoman Stabenow. Thank you very much, Senator Casey. 
And now I am going to turn to Senator Gillibrand for the next 
introduction.
    Senator Gillibrand. Thank you, Madam Chairwoman. I am very 
pleased to welcome a New Yorker, Paul Bencal, who is a grape 
producer from Ransomville, New York in Niagara County in 
Upstate New York. Mr. Bencal's farm consists of 50 acres of 
vineyards, producing Concord and Niagara Juice grapes.
    He has been operating his farm since 1973. Grapes are a 
very important part of New York's economy. In 2010, New York 
produced 35.2 million pounds of grapes worth $68.4 million. We 
are the third largest grape producer in the country, which we 
are very, very proud of.
    In Upstate New York, tourists flock to enjoy the use of our 
vineyards since we have some of the most scenic agricultural 
lands in the country. The juice grapes that Mr. Bencal's farm 
produces are nutritious sorts of vitamins, nutrients and anti-
oxidants, and with the obesity rate skyrocketing, pure grape 
juice provides a healthy and very delicious beverage option.
    Beyond farming the world's best grape juices, he also 
serves as a leader to a number of New York's organizations. He 
is chairman of the Lake Erie Regional Grape Extension Team, the 
District 2 director of the New York Farm Bureau and a delegate 
for the National Grape Cooperative.
    Mr. Bencal, welcome to the Senate Agriculture Committee. We 
thank you for traveling to D.C. today and to hear about your 
experience of New York grape growers as we prepare for the 2012 
Farm Bill.
    Mr. Bencal. Thank you very much, Senator. Pleased to be 
here.
    Chairwoman Stabenow. Thank you very much. And our next 
panelist comes to us from Hickman, California. Great to see 
you. Mr. Robert Woolley is the owner of Dave Wilson Nursery, a 
multi-generational family business that grows planting stock 
for fruits and nut trees, both for orchard plantings and retail 
sales. Mr. Woolley has also served as a member of the National 
Clean Plant Network (Tier 2) Governance Committee for fruit 
trees and we are so pleased to have you here today.
    And also, Senator Lugar, you had introduced Mr. Glenn 
Abbett before. I do not know if there is anything else you 
would want to add at this point?
    Senator Lugar. No, I just look forward to his testimony.
    Chairwoman Stabenow. Terrific. And last, but certainly not 
least, we have Mr. Charles Wingard, who comes to us from, is it 
Pelion?
    Mr. Wingard. Pelion.
    Chairwoman Stabenow. Pelion. I am sorry, Pelion, South 
Carolina, where he is the director of field operations at W.P. 
Rawls and Sons. Mr. Wingard works to produce both value added 
and fresh cut products, including greens, peppers, zucchini, 
and I assume the great carrots that we just all received. This 
is terrific. We are going to eat well today.
    He serves as a member of the United Fresh Produce 
Association's government relations committee. And I also 
understand that your daughter, Mary Grace, successfully lobbied 
for collard greens to become the state vegetable of South 
Carolina and she is just nine years old. Do I understand that?
    Mr. Wingard. That is correct, yes, ma'am.
    Chairwoman Stabenow. We have an up-and-comer here. I think 
we may have a future member of the United States Senate coming 
up. Is she with you here today?
    Mr. Wingard. No, ma'am. She is in a play tomorrow night and 
she had dress rehearsal last night. My wife did not think she 
should make the trip. I flew up. Am going back tonight.
    Chairwoman Stabenow. Well, please give her our 
congratulations and best wishes in all of her efforts.
    Senator Roberts. Madam Chair?
    Chairwoman Stabenow. Yes.
    Senator Roberts. Could I ask what part of South Carolina 
the gentleman is from?
    Mr. Wingard. I am from the middle part of the state, 
Lexington County.
    Senator Roberts. Sure.
    Mr. Wingard. Right in the Midlands.
    Senator Roberts. My wife is from South Carolina.
    Mr. Wingard. I understand that. I think Richland County?
    Senator Roberts. She is from Sumter.
    Mr. Wingard. Sumter. That's the better part.
    Senator Roberts. But it is not too far away. I learned 
early you can take the girl out of the South, but not the South 
out of the girl.
    Mr. Wingard. You got a good one.
    Senator Roberts. Good luck to you.
    Chairwoman Stabenow. She will be glad to know that collard 
greens is now the state vegetable of South Carolina----
    Senator Roberts. I am sure she will. She will be delighted.
    Chairwoman Stabenow. --as a result of Mary Grace Wingard. 
So thank you very much and we would now like to turn to all of 
our witnesses. And of course, as we have indicated before, we 
ask for five minutes of verbal testimony so we have time for 
questions, and we would be glad to accept anything else that 
you have in writing.
    So welcome. Mr. Engelhard.

 STATEMENT OF DENNIS ENGELHARD, OWNER, ENGELHARD FAMILY FARMS, 
                      UNIONVILLE, MICHIGAN

    Mr. Engelhard. Good morning, Chairperson Stabenow, Ranking 
Member Roberts.
    Chairwoman Stabenow. You need to push your button.
    Mr. Engelhard. Committee members.
    Chairwoman Stabenow. There you go.
    Mr. Engelhard. There. We are on air. Thank you. I really 
appreciate the opportunity to talk to you this morning. As 
Senator Stabenow indicated, I do farm in Tuscola County, which 
is one of the largest agricultural counties in the country. It 
is also one of the leading dry bean producing counties in the 
country.
    I live on the farm that my great grandfather homesteaded in 
1892. My son will be the fifth generation of my family that has 
been involved in production agriculture.
    I am here representing dry beans and dry beans are 
responsible for about 18 percent of the specialty crop 
production in the United States. We have always been kind of a 
bystander in the farm legislation. We have typically used the 
restricted planning clause to take the place of other 
subsidies, direct payments, and we simply use that as a tool to 
have a stable market for the crop that we grow.
    In the last Farm Bill, we began to see through the 
Specialty Crop Block Grants how valuable research was in not 
only making our crop better, our industry better, but it also 
was, as you look at specialty crops as a whole, I think Senator 
Stabenow has seen how valuable they are to this country as a 
whole, and some the goals that our nation has.
    So the first thing I would like to talk to you about today 
is the Pulse Health Initiative. The Pulse Health Initiative is 
a joint venture between the United States Dry Bean Council and 
the United States Dry Pea & Lentil Council. Pulse has grown in 
24 states every year and they are processed in an additional 13 
states.
    The PHI started with a planning session in March of 2010 at 
the ARS facility in Beltsville, Maryland. This planning session 
brought together leading pulse researchers from across the U.S. 
and included a number of ARS staffers as well.
    We looked at three significant research areas at this 
planning session, first of all, health and nutrition. Pulses 
are low in fat. They are a fundamental source of fiber, protein 
and they are very high in folates. Pulse crops provide an 
outstanding health and nutritional benefit that not only 
contribute to a healthy lifestyle, but can also help reduce 
serious health problems.
    The yearly indirect cost of obesity is seen as nearly $450 
billion a year. Pulses could be part of that answer. While 
existing research of dry beans, dry peas, lentils and chick 
peas is certainly valuable, it is just the tip of the iceberg. 
There is much more to be studied in pulse crops in order to 
unlock their full potential for preventing nutrition-related 
health problems that plague our world.
    We also looked at sustainability. We talk about population 
growth. Nine billion people will be on our planet by the year 
2050. This creates tremendous pressure to produce more food on 
fewer acres. Pulse crops can be an integral component in 
designing sustainable production systems that will effectively 
utilize limited land and water resources.
    For example, it takes 1,857 gallons to produce one pound of 
beef. It takes 469 gallons of water to produce one pound of 
chicken. It takes 216 gallons of water to produce a pound of 
soybeans, but it takes only 43 gallons of water to produce a 
pulse crop that is so valuable in our food system.
    We also looked at functionality and end use to better 
utilize the health and nutrition aspects and the sustainability 
aspects of pulses. We need additional research in the 
functional use of pulse crops such as milled flour and 
ingredients. We also need to develop more convenient ways to 
bring pulses into our diet.
    In short, the Pulse Health Initiative would allow us to 
gradually refocus our research efforts to make America more 
healthy and environmentally sustainable. I just also want to 
make a few points about some other things that are very 
valuable to us in the specialty crop industry. The Specialty 
Crop Block Program has been referred to repeatedly here this 
morning and it is being used very successfully. There are 66 
applicants for block grants in Michigan this year. In the dry 
bean industry, we are using them to evaluate and further the 
use of more modern practices like direct harvest and also 
narrow rows to help producers keep edible beans in their 
production systems.
    We also just want to laud the value of the foreign market 
program--Foreign Market Development program and the MAP, Market 
Access Program. These are effective partnerships for many 
specialty crops and certainly in dry beans where we export one-
third of our crop and contribute to the balance of trade.
    The only other thing I want to mention is the crop 
insurance. Farmers really do not mind bearing the cost of their 
risk management, as long as they have effective programs. Crop 
insurance has done a very nice job for us. The specialty crops 
need to be reviewed to make sure that there are opportunities 
to protect our risks in the face of bad weather.
    In conclusion, the Pulse Health Initiative, I believe, is 
the shining star of my presentation this morning. I would 
encourage all of you to become fully aware of the benefits that 
are available through that program and that you would consider 
using it as part of your vocabulary as you develop this Farm 
Bill. Effective farm legislation has been a real key in keeping 
cheap, safe, American--cheap food in front of all Americans and 
we appreciate the efforts that have been made in that in the 
past and we look forward to the continuation of that in the 
2012 Farm Bill. Thank you.
    [The prepared statement of Mr. Engelhard can be found on 
page 58 in the appendix.]
    Chairwoman Stabenow. Thank you very much. Ms. Tait.

  STATEMENT OF KIM TAIT, OWNER, TAIT FARM FOODS, INC., CENTRE 
                       HALL, PENNSYLVANIA

    Ms. Tait. Good morning. Thank you. Chairwoman Stabenow, 
Ranking Member Senator Roberts, and Senator Casey and the other 
members of the Senate Agricultural Committee, I am Kim Tait and 
I am the owner of Tait Farm Foods. I am testifying on behalf of 
the thousands of small and medium size organic family farmers 
across this country. Thank you for allowing me to provide 
testimony regarding the importance of organic agriculture and 
specialty crops. It is truly an honor to be here.
    As Senator Casey mentioned, I own and operate a small 
family farm in Central Pennsylvania. It is a third generation 
farm. We have a diversified business and we have a certified 
organic farm. We operate 10 acres of organic vegetable, fruit 
and greenhouse production. Our primary market is a 200-member 
CSA and we serve three restaurants. We go to a local farmer's 
market and have an on-farm retail store as well.
    We also manufacture specialty foods on the farm in a small 
facility and have a retail store and greenhouse operation. One 
of the great gifts that we have had is we are on a main road 
and we have had the good fortune to be able to support over 100 
other local regional producers of food products, as well as 
artisan crafts made in our region.
    We also have a mail order business and a wholesale business 
for our food products. And one of our roles that we have seen 
is we have grown and expanded and evolved is that we provide 
education and tours and research. We work collaboratively with 
Penn State University, local government and community 
organizations.
    As a representative of organic producers, I want to 
emphasize that we have been and continue to be the fastest 
growing sector of the agricultural marketplace. Our successes 
come from the growing consumer demand for healthy food and we 
serve local, national and international markets. Our customers 
want to be assured of organic authenticity for our products and 
are willing to pay a premium for the integrity provided by the 
USDA Organic seal.
    Our industry has generated double digit growth in the 
market for nearly two decades and during the recent recession, 
we experienced 8 percent growth. I have had the good fortune to 
participate in several of the USDA designed--programs designed 
to help organic small and mid-size growers. These include the 
Organic Cost Share Program, the EQUIP High Tunnel Grants, SARE 
Research Programs and the NRCS Soil Conservation Services. And 
we have also worked closely with Land Grant Agricultural 
Extension. I am also very proud to say that we have recently 
been approved to accept food stamps for our CSA.
    The USDA's programs provide significant help for organic 
producers. They allow us to grow our businesses by providing 
seed money to take the next steps. We see them as a hand up and 
not a hand out. They have become firmly rooted in sound 
agricultural and business practices for most farms that have 
received them.
    The Organic Cost Share Program is helping thousands of new 
and small farmers come into and stay in the growing organic 
marketplace. An example on my farm of the value of these 
programs is with the EQUIP High Tunnel Grant. This new growing 
structure will allow us to double our winter and early spring 
greens production. This is a good investment for both the 
government and us and will continue to provide a return on 
investment for the next 30 years.
    Equally important, our ability to accept food stamps will 
help us expand our market and allow families and individuals 
with limited means to purchase locally grown organic foods. 
This is a big deal for our community.
    Successful and diversified farming operations create jobs 
for rural communities, and they also train young farmers. The 
average age of a farmer is 57 years old. This should frighten 
all of us. And as Secretary Vilsack has said, if you think 
dependence on foreign oil is bad, you have not seen anything 
compared to the dependence on foreign food. We need dedicated 
young people tilling the earth; there is just no doubt.
    And young people seem to be drawn to organic agriculture. 
We see it with internships and we have 10 students every year 
applying for a one-internship opportunity on our farm. We 
believe it is essential to continue to have oversight and 
regulation from the National Organic Program. This governing 
body assures consumers around the world that they can buy 
organic food with confidence.
    Organic growth is being driven by consumers and we are 
working hard to meet the demand. Here is how I believe Congress 
can help. Continue to fairly fund the National Organic Program. 
Support new and beginning farmers with the Cost Share Program. 
Continue to help organic farmers take the next steps with a 
hand up. Support on-farm innovation through programs like EQUIP 
and renewable green energy projects.
    Simplify the granting process and make it farmer friendly. 
The current value added producer grants have a deadline of 
August 29th. It is the height of the growing season. Base 
grants on sound business proposals rather than feasibility 
studies.
    By and large, we are a group of doers. I do not really need 
$100,000 to study something, but if you invest in my project, I 
will make it happen and get it up and running. Support organic 
export markets. It is 8 percent of our business and continues 
to grow. Make funding and tax incentives for farmland 
preservation and conservation easements permanent.
    Chairwoman Stabenow. I am going to need to have you wrap 
up.
    Ms. Tait. Oh, I am sorry.
    Chairwoman Stabenow. Thank you.
    Ms. Tait. Okay.
    Chairwoman Stabenow. Yes, that is all right.
    Ms. Tait. Can I just make my closing?
    Chairwoman Stabenow. Sure.
    Ms. Tait. Excuse me. We are all in this together and each 
of us has a role to play. In nature, we know that diversity 
creates stability. I believe the same is true for agriculture. 
It is the diversity of our farms and farming systems that make 
American agriculture great.
    Organic agriculture is an important part of the future of 
food from local to global. We ask that we get supported fairly 
in the 2012 Farm Bill so we can do our part. Thank you.
    [The prepared statement of Ms. Tait can be found on page 62 
in the appendix.]
    Chairwoman Stabenow. Thank you. Thank you very much. Mr. 
Bencal.

STATEMENT OF PAUL BENCAL, OWNER, PAUL BENCAL FARM, RANSOMVILLE, 
                            NEW YORK

    Mr. Bencal. Chairwoman Stabenow, Ranking Member Roberts, 
and members of the Committee, thank you for the opportunity to 
discuss grape grower priorities and the National Grape 
Cooperative as you work to develop the next Farm Bill. I have 
also submitted a written testimony, slightly longer than my 
oral will be.
    Welch's National Grapes wholly-owned marketing cooperative 
processes and markets our members' grapes in the United States 
and 51 other countries. While Welch's is a well-known American 
brand, its owners are family farmers with an average farm size 
of 40 acres. I appreciate the opportunity to submit testimony 
and request that the statement be made part of the official 
record.
    Chairwoman Stabenow. Without objection.
    Mr. Bencal. Specialty crops--I am sorry.
    Chairwoman Stabenow. That is fine. We are just putting it 
in the record. Thank you.
    Mr. Bencal. Okay. Specialty crops do not receive direct 
government subsidies and each year there are significant risks 
that growers in one or more areas in the United States will 
suffer weather-related damage. I and many other farmers are in 
business today because crop insurance and disaster--of crop 
insurance and disaster relief benefits.
    The SURE program in the 2008 Farm Bill was designed to 
eliminate the need for ad hoc disaster relief. While payments 
were slow and did not provide enough relief, there were growers 
who benefitted from SURE. There is no baseline funding for the 
SURE program and after September 30, 2011. I speak for more 
than myself when I tell you that it is critical to a continued 
U.S. grown food supply that growers are able to purchase 
affordable crop insurance and that SURE or another disaster 
program is incorporated into the next Farm Bill.
    It is important to note that there are inequitable 
differences between program crops listed on a Chicago Board of 
Trade and specialty crops. One example is that the posted price 
for grapes are calculated by first deducting a per ton cost of 
harvesting and hauling while crops on the Chicago Board of 
Trade are insured at the harvest price without deducting 
harvest costs from the insurable price.
    A more equitable treatment would be to treat grapes in the 
same manner. Growers and an adjuster would determine the actual 
dollar amount of harvesting and hauling costs which were 
avoided because of crop loss and then deducted from the 
eligible indemnity payment.
    Juice grapes, like grains, are mechanically harvested, 
resulting in a per acre cost of harvest that does not change 
much just because the yield has been reduced by Mother Nature. 
The Market Access Program, MAP, has a positive effect on U.S. 
trade deficit. According to the USDA, between 1985, when MAP 
was created, and 2008, agriculture imports increased by 300 
percent.
    MAP has significantly contributed to increased consumption 
of Concord grapes in Japan through advertising and sales 
promotions. Now, over 92 percent of retailers, or nearly 12,000 
outlets, carry Welch's brand Concord juice grapes. Since 2007, 
Welch's has seen exports to Japan grow by 46 percent. The 
program has been funded annually since fiscal year 2006 at $200 
million.
    We request that MAP funds are maintained at least at 
current levels in the next Farm Bill and that branded 
cooperatives continue to be eligible for MAP.
    Funding for the former Viticulture Consortium no longer 
exists. Continued research is critical if U.S. growers will 
successfully compete in a world marketplace. The consortium 
established in 1996 funded grape-related research in all states 
from all disciplines. Over the past 15 years, an average of 1.2 
million was distributed annually.
    The program has been especially valuable and effective for 
the grape growing industry because funds were directed to top 
priority research. While the largest single source of the 
industry-directed research funding, the seed funds that the 
consortium provided were often supplemented by state and 
private funds, extending the reach and benefits of the program. 
Without federal funding, additional state and private funds are 
in danger of elimination. For these reasons, it is important 
that research funding for National Institute of Food and 
Agriculture is included in the Farm Bill.
    In recent years, aggressive regulatory efforts have been 
initiated, affecting nearly every aspect of U.S. agriculture. 
We appreciate the oversight of this Committee to closely 
monitor the impact of the regulatory burdens and I thank you 
for acting on reducing the Regulatory Burdens Act, H.R. 872.
    On October 31, 2011, duplicative enforcement layers on 
thousands of pesticide applicators will expose them to legal 
jeopardy through citizen suits. Action taken by this Committee 
to approve H.R. 872 is an important step to fixing the 
duplicity. It is critical that the Senate pass legislation 
before October 31st.
    And finally, as part of the Farm Bill debate, farmer-owner 
cooperatives are concerned that all forms of fruits, 
vegetables, tree nuts are eligible for USDA programs. I want to 
thank you for this opportunity to testify. Thank you for your 
leadership in assisting American farmers and ranchers. And I 
must comment that you have already allowed David Johnson to 
leave the room and from what I have heard, we probably should 
not let him leave the building in jeopardy of the 2012 Farm 
Bill.
    Chairwoman Stabenow. That is right.
    Mr. Bencal. Thank you very much.
    [The prepared statement of Mr. Paul Bencal can be found on 
page 52 in the appendix.]
    Chairwoman Stabenow. Thank you very much. Mr. Woolley.

   STATEMENT OF ROBERT WOOLLEY, OWNER, DAVE WILSON NURSERY, 
                      HICKMAN, CALIFORNIA

    Mr. Woolley. Chairman Stabenow, Ranking Member Roberts and 
Senator Lugar and guests, thank you for the opportunity to 
testify today. I am Robert Woolley, owner of Dave Wilson 
Nursery, a California nursery that grows approximately five 
million deciduous fruit, nut and shade trees annually for 
commercial orchardists and the home garden trade.
    I am also testifying on behalf of the American Nursery and 
Landscape Association, our national trade organization, and its 
state counterpart, the California Association of Nurseries and 
Garden Centers. We are grateful meaningful specialty crop 
provisions were part of the 2008 Farm Bill.
    I would like to focus on two section of the Farm Bill that 
are of critical importance to specialty crop producers. Title 
X, Section 10201 provided funding for plant pest and disease 
initiatives. Section 10202 funded the National Clean Plant 
Network. These sections acknowledge the enormous keep-us-up-at-
night threat that foreign pests, plant pests and pathogens pose 
to U.S. specialty crops and markets.
    Section 10201 has funded a range of plant pests and disease 
programs in partnership with industry and state collaborators. 
Funded programs address six broad goal areas. Under goal four, 
safeguarding nursery production, funded initiates are laying 
the groundwork for a modernized nursery certification system. 
Goal six, enhance mitigation, provides better tools to better, 
to more quickly detect, contain and eradicate new pest 
introductions. Perhaps the best recent example of a program's 
success involves Plum Pox Virus, which I will go into later.
    To us, Section 10202, the National Clean Plant Network, 
stands as one of the brightest success stories of the specialty 
crop title. I am an active member in this effort and now serve 
on the network's governance committee for fruit trees. The 
network provides technical expertise, equipment and capacity to 
test mother plants from which nursery stocks are propagated to 
determine if they are free of disease.
    If no clean plants are available, the network can eliminate 
virus and other disease causing pathogens via heat treatment, 
chemotherapy and other methods that cannot be implemented at 
the farm level. The Clean Plant Network provides apple, peach, 
plum, cherry, grape, citrus and berry growers with safe access 
to the world's newest varieties and supports profitability and 
global competitiveness.
    Farm Bill resources have enabled robust coordination of an 
effective national network. Continued funding of the Clean 
Plant under the Farm Bill is absolutely essential. The 
eradication of Plum Pox Virus is a dramatic success story for 
10201 and 10202 programs. This serious disease of stone fruit 
was first detected in the U.S. in 1999. Left unaddressed, the 
U.S. would have faced the same devastation that swept through 
parts of Europe where yield losses reached 80 to 100 percent 
among susceptible crops.
    From 2009 through 2011, more than $4.5 million in 10201 
funding went towards detection surveys and to manage immediate 
threats to growers in Pennsylvania, in New York and Michigan. 
In 2009, USDA and state partners used 10201 funding to complete 
the intense monitoring and declare eradication of Plum Pox in 
Pennsylvania, which by the way, was only the second time in 
history that a virus disease was eliminated in a country.
    Without 10201 funding, eradication efforts in Pennsylvania 
may not have succeeded. To quote Benjamin Franklin's most 
famous adage, an ounce of prevention is worth a pound of cure. 
The overall cost of the Pennsylvania Plum Pox eradication 
effort was close to $50 million. The Clean Plant Network is now 
a proactive line of defense against this happening again and 
the $5 million in annual funding is a well spent ounce of 
prevention that enables safe importation of plant materials and 
reduces the temptation for illegal suitcase importations that 
threaten our industry.
    On a negative note, the full potential of these Farm Bill 
programs has been hindered by USDA legal opinion that has held 
up money for these and certain other programs. Congress has 
fixed the problem a couple of times, but only temporarily, 
leaving these programs subject to stop and start delays and 
uncertainty. We urge Congress to enact a permanent fix.
    In conclusion, the 2008 Farm Bill finally gave specialty 
crop producers a meaningful place in the Farm Bill. These 
industries are roughly half the value of all U.S. crop 
production. And by the way, nurseries are about a third of 
specialty crops. They are high-valued crops generating jobs and 
economic activity in rural community. For our industry the 
plant pest and clean plant provisions have been among the most 
beneficial.
    We hope that you will be able to provide continued and 
improved funding in the next Farm Bill. Thank you very much.
    [The prepared statement of Mr. Woolley can be found on page 
74 in the appendix.]
    Chairwoman Stabenow. Thank you very much. Mr. Abbett.

    STATEMENT OF GLENN ABBETT, MANAGER, ABBETT FARMS, LLC, 
                       LACROSSE, INDIANA

    Mr. Abbett. I would like to thank the Committee for this 
opportunity to talk, and especially Senator Lugar for your kind 
words and for mentioning my son, Casey, who now has quite a 
story to go back home in Indiana to tell to his friends.
    Good morning. My name is Glenn Abbett. I am a farmer from 
LaCrosse, Indiana. I am here in support of Senator Lugar's 
Farming Flexibility Act. It would cut federal spending, add 
American jobs, improve the environment and protect the fresh 
produce industry from competition on subsidized farm ground.
    Let me start with my farm. On our family farm, we grow 
corn, seed corn, soybeans, wheat and about 650 acres of 
processed tomatoes. My tomato production is under contract with 
the Red Gold, Inc., an Indiana tomato processing company.
    I am here today on behalf of the American Fruit and 
Vegetable Processor and Growers Coalition. We see greater 
flexibility to grow fruit and vegetables for processing. Since 
1996, farm policy generally has prohibited the production of 
fruit and vegetables on base acreage, though there are 
exceptions. This restriction was adopted to prevent producers 
receiving farm program support from competing with farmers 
growing the fresh fruit and vegetable market.
    The prohibition on growing fruit and vegetables was not a 
significant problem until the 2002 Farm Bill, where soybeans 
became a program crop. Virtually all of the quality farm land 
in states like Indiana now have program base. The problem has 
three dimensions, first, program restrictions. I have gradually 
taken over our family farm from my father. His producer history 
has been lost.
    Second, fear of base acreage loss. Like most mid-west 
farmers, I rent much of my farm ground. Quite rationally, 
landlords fear fruit and vegetable production could cause them 
loss of base acreage. So even if they have farm history, many 
will not allow me to grow vegetables on their land I rent from 
them.
    Third, the restriction is a threat to my market. As time 
goes on, about 5 percent of the mid-western vegetable producers 
stopped growing vegetables each year. That means that each year 
it will be harder for our processor market to stay in business 
because they cannot contract enough for production.
    Before the last Farm Bill gave flexibility, many processors 
were unable to contract for all the production that they 
needed. Now the problem is only occurring with dry beans 
because they were not included in the pilot flexibility. The 
last Farm Bill addressed these problems by creating a pilot 
project that also requires fruit and vegetable production under 
the pilot project to be under contract for processing. In 
reviewing performance of the pilot project, USDA concluded that 
it showed modest consumer benefit, real benefit to fruit and 
vegetable growers and processors in the Midwest and no harm to 
the fresh produce industry.
    Of course, participation in the pilot program also saved 
taxpayer money because producers like myself opted out of the 
program participation on those acres. So the pilot program has 
been a big success.
    We want to thank Senator Lugar for introducing the Farming 
Flexibility Act of 2011, as well as Chairwoman Stabenow, who 
has previously co-sponsored this legislation. The Farming 
Flexibility Act of 2011 would fix this three-fold problem by 
allowing an acre for acre opt-out from the farm program for 
production of fruits and vegetables under contract for 
processing.
    My fellow witness from South Carolina is here to carry a 
message of opposition to allowing production of vegetables for 
processing. In every county in South Carolina, USDA rules say 
farmers may produce fruit and vegetables for the fresh or 
processed market under the double cropping exception, so they 
receive program payments on the very acres used to produce 
vegetables for the fresh or processed market.
    We are not asking for the flexibility South Carolina has. 
In the Midwest, we just want to be able to opt out of the 
program on an acre-for-acre basis to grow vegetables for 
processing. That would save taxpayer dollars, save American 
jobs, allow environmentally desirable crop rotations and 
benefit the consumer, all without harm to the fresh produce 
industry. That is precisely what the Farming Flexibility Act 
would do.
    Thank you for considering my views.
    [The prepared statement of Mr. Abbett can be found on page 
42 in the appendix.]
    Chairwoman Stabenow. Thank you very much. Mr. Wingard.

  STATEMENT OF CHARLES WINGARD, DIRECTOR OF FIELD OPERATIONS, 
          W.P. RAWLS AND SONS, PELION, SOUTH CAROLINA

    Mr. Wingard. Thank you, Madam Chair and Ranking Member 
Roberts and members of the Committee, for allowing me to 
testify today.
    My family specializes in southern leafy greens such as 
collards, kale, mustard and turnip greens. We produce a variety 
of summer vegetables in season and also have a few other year-
round vegetables. I work with eight other family members 
everyday to oversee operations on my farms. Therefore, I am 
pleased to be here.
    We have farm operations in South Carolina and Mississippi. 
We have relationships or contract growers in Florida, Virginia, 
New York, Georgia and Texas. Our produce is marketed and 
delivered throughout the eastern United States and about half 
of our leafy greens are washed and packaged in our own facility 
and sold as fresh cut chopped greens under our own labels.
    As you mentioned, Madam Chair, I am also involved in our 
national trade organization, United Fresh Association. We 
represent 1,700 growers, packers, shippers, fresh cut 
processors, distributors and marketers of fresh fruits and 
vegetables, accounting for the vast majority of produce sold in 
the United States.
    My family strongly supports the efforts of the Specialty 
Crop Farm Bill allowance and all the organizations that they 
represent. As a larger grower, I am pleased that this Committee 
has sought out and is getting the input of small farmers and 
organic farmers. I think they are very important in the makeup 
of the agricultural fabric of this country.
    My written testimony covers a broad spectrum of issues that 
are important to the specialty crop industry, but I want to 
touch on a few. Madam Chair, I thought you did an excellent job 
in summing up how specialty crops became included in the Farm 
Bill in '08. I would be remiss if I did not add to your 
comments.
    A lot of people in '07 and '08 contributed to the cause, 
but much of the success of our efforts can be attributed 
directly to you because of your leadership during that debate. 
For that we offer our sincere thanks.
    A few components I would like to consider for '12 going 
forward. Specialty Crop Block Grants have served as the 
cornerstone of the '08 Farm Bill. These block grants have 
presented the best example to drive local solutions, 
opportunities and priorities to specialty crop stakeholders in 
each state and should be enhanced in the '12 Farm Bill.
    The fresh fruit and vegetable program is another important 
program in the Farm Bill. I gave you some snacks today and that 
is a result of that funding in the Farm Bill. With regards to 
the '12 Farm Bill, I would like to highlight that this program 
will reach more than four million low-income elementary school 
children nationwide this coming year. It is highly effective 
and in rural South Carolina anyway, at least in South Carolina, 
in rural South Carolina is very visible. This program helps to 
increase young children's consumption of fruit and vegetables 
at school.
    My state of South Carolina will receive $2.7 million this 
year to implement this program and this will allow 128 of our 
elementary schools to participate, touching 40,000 students. 
The average rate of fruit and reduced lunch in those schools is 
over 85 percent.
    For many of these students, if not all, but for a very--
probably the very biggest majority of them, they will not be 
exposed to fresh fruits and vegetables in any other way in 
their life because--or in their young lives to this point 
because of their socioeconomic status. We have been a leader in 
this program and have worked with our state to educate schools 
in how to ensure successful implementation.
    We have traveled to school districts all over South 
Carolina and have helped them implement it. We have developed 
fresh cut vegetables and fruits and kid-friendly packages, such 
as you see and have, to offer to the schools and to their lunch 
programs. This is a win for agriculture, a win for the produce 
industry, for our children and for public health.
    Finally, let me touch on research, which is both the 
foundation and catalyst for growth and the advancement of any 
industry. For the American specialty crop industry, successful 
research projects have the ability to reduce the future burden 
of the Federal Government through greater public access to 
healthy products, enhanced exports to growing markets, pest and 
disease resistant crops and reduced resource consumption and 
variety of other beneficial applications. However, in order to 
offer these benefits and reach these goals, U.S. specialty 
crops require an enhanced commitment to research and extension 
activities focused on their priorities.
    We look forward to working with the Committee on the 
development of the next Farm Bill. We ask that you continue to 
build on the foundation and investment of the '08 Farm Bill and 
ensure that our important issues are appropriately addressed as 
you move forward. However, we do realize that Congress is 
facing fiscal constraints and we ask that you help keep us in 
mind. If there is pain to be felt, honestly I think the best 
thing is to share the pain.
    Thank you, ma'am.
    [The prepared statement of Mr. Wingard can be found on page 
65 in the appendix.]
    Chairwoman Stabenow. Well, thank you very much. Senator 
Roberts and I were commenting on the packaging, on the Carrots 
for Kids in School, talking about sports candy. It is actually 
very--I want to compliment you. It is a very smart packaging, I 
think, and very appealing. So I am going to congratulate you on 
that. It is one of the great partnerships that we have had in 
the Farm Bill between our growers and our schools and I think 
it is going to make a difference. So thanks very much.
    Thanks very much to all of you. Mr. Engelhard, let me start 
with you, because you grow specialty crops and also program 
crops, so you are really in a unique position, I think, to 
speak about what works and what does not work. I am wondering, 
from your perspective, which of the programs that we have in 
place right now have actually been most important to you in 
supporting your work in terms of as a dry bean grower?
    Mr. Engelhard. From a news standpoint, the Specialty Crop 
Block Grants, I think we have heard across the whole panel here 
today, seem to be very successful, because I think it allows 
industries, different producer groups, to really look at what 
issues they might have and apply in a very timely and 
methodical manner to get some of this funding. And then since 
they have put a lot of effort into getting that funding, they 
make a lot of effort to make it a good program and use the 
funds responsibly.
    But certainly we have also heard across this panel how 
important MAP and FMD have been to many of the specialty crops 
and that has been on a long-term basis. Again, it has such 
importance for export, for our commodities, but also for our 
balance of trade as a nation.
    Chairwoman Stabenow. As you indicated, the importance, I 
think, of a Specialty Crop Block Grant is that it does allow 
producers state by state to determine what is most important to 
them and I appreciate your comments on that.
    I wonder, to anyone on the panel, I would like to have you 
speak about the current safety net programs and helping you to 
manage risk in your operations and what do you think is most 
effective. We, I think, as a Committee, really identify risk 
management efforts as being critical in terms of support for 
our farmers and the safety net obviously is critical.
    I wonder if anyone would like to speak, or if all of you 
would like to in terms of which safety net programs are most 
important in helping you to manage risk?
    Mr. Engelhard. Senator Stabenow, I will take that a little 
bit, since you referred to the fact that I grow both specialty 
and row crops. The row crops, the program crops, have been very 
functional and the programs continue to evolve in ways that 
help us to manage our risk very thoroughly.
    The specialty crops, since there are less of them, and 
since there is less of a base in edible beans, if we want to 
grow a new edible bean because there is a market opportunity, 
we have to grow that for three years before we can get any kind 
of insurance on it at all. So that institutes some real risk.
    The other thing, in some of the program crops, we now have 
organic prices for crop insurance. In other words, there is 
always a price differential between organic production and 
standard conventional production, and now that has been 
recognized in the corn and soybean crop, but again in the 
specialty crops, those things have not evolved.
    So taking a closer look at those specialty crops and how 
they can be insured to make sure that the producers' revenue 
stream is taken care of would be very valuable.
    Chairwoman Stabenow. Thank you. Anyone else? Yes, Mr. 
Bencal.
    Mr. Bencal. If I may, when we first started assessing the 
advantages for crop insurance within the grape industry, 
especially with juice grapes, several years ago, I would 
venture to say probably 15, 20 years ago we started discussion 
with the RMA office on the classification of grapes. We first 
started with I believe there were two, maybe three varieties 
described as far as the grape industry. Now we are up to as far 
as 14 different varieties.
    We are still not done with RMA yet. It was a hard fight to 
get them to believe that one size does not fit all, especially 
when it comes to specialty crops. It varies not only from one 
variety to another, but one crop to another. Tomatoes, peppers 
and cucumbers are a lot different than--they have different 
requirements than grapes do. Their market is different.
    They have also come to understand that a variety of grapes, 
Concords and Niagaras more specifically, you can use them for 
juice grapes, but you can also use as wine grapes, as well. The 
price difference is quite substantial.
    It has been a long process and there is more work to be 
done, but they are coming around. But it is just a slow, 
tedious process to get them to understand. I would like to see 
that sped up a little bit.
    Chairwoman Stabenow. Thank you very much. I have run out of 
my time and so I am going to turn to Senator Roberts at this 
point in time for questions.
    [Pause.]
    Senator Roberts. Pardon me. I was looking for Spartacus 
here on sports candy. On the back it says, hey kids, I'm 
Spartacus, if you want to become a superhero by eating lots of 
different fruits and veggies, or what we eat at Lazy Town.
    Where is Lazy Town in South Carolina? I know where Lazy 
Town is here.
    [Laughter.]
    Mr. Wingard. I think it is a fictional cartoon series. It 
has been in Europe more than United States. It has kind of 
forayed into the United States.
    Senator Roberts. W.P. Rawl.com dash or slash Lazy Town. 
That is very--we were wondering if you were Spartacus here on 
this sample.
    Thank you to the panel. Mr. Engelhard, I feel compelled to 
say I feel your pulse. But rather than edible beans or 
something that you could market as a special product that would 
provide energy, et cetera, et cetera, and I am not familiar 
with all the attributes of your product, but there is a great 
market for that. Why do you call it pulse?
    Mr. Engelhard. Pulse is----
    Senator Roberts. No, why do you call it pulse? If you call 
it--jazz it up a little bit, because I would imagine nine out 
of 10 people involved in agriculture say, why don't you call it 
X, what, bean or X edible bean, or superhero protein bean or 
something? I am just interested.
    Mr. Engelhard. And that is exactly why we need the Pulse 
Health Initiative, because we need to be more creative in our 
marketing efforts.
    Senator Roberts. All right, I appreciate that. Ms. Tait, 
the first commercial I ever made in running for office was 
asking where is the next generation of farmers going to come 
from. The fact that you pointed out that you have an 8 percent 
growth in regards to organic right in the middle of a recession 
I think is remarkable. By the way, the average age then was 52 
as well, so we are sort of holding our own to some extent.
    Let's see, Mr. Bencal, you talked about that consortium 
that started in 1996. I just want you to know I had something 
to do with that. At any rate, Mr. Woolley, we will get after 
the legal beagles that are causing you so many problems. And 
then Mr. Abbett, you really have--if you think flexibility was 
a challenge for you now, you should have been here in '96. That 
was a little--there was remarkable change, but I know exactly 
what you are talking about and we will be trying to address 
that.
    Mr. Wingard, let's see, Lazy Town, I have already asked 
that question. I think you probably hit it on the head in terms 
of our budget responsibilities. We know that Agriculture will 
contribute. We must, but everything should be on the table and 
it should not be disproportionate with other programs.
    And I have been trying to tell people, quit talking about 
specific programs. Let's just say everything is on the table 
and then let this Committee do it, because we have a lot of 
experience on this Committee in regards to what we should be 
doing, as opposed just to a numbers game.
    I've only got a minute left, so I am going to ask you to 
zip through this last question real quick. At the end of the 
day, what keeps you up at night? Is it labor, FDA, EPA, pest 
and disease threats, Mother Nature, Federal Government? What is 
the number one challenge or risk that impacts your business the 
most? Go.
    Mr. Engelhard. Marketing.
    Ms. Tait. Mother Nature.
    Mr. Bencal. Weather.
    Mr. Woolley. Immigration.
    Senator Roberts. Really? Okay.
    Mr. Abbett. Labor. Planting prohibition.
    Mr. Wingard. Government responding to sensationalism in the 
media.
    Senator Roberts. I do not know how to fix that one.
    [Applause.]
    Senator Roberts. I would like to.
    Chairwoman Stabenow. We actually can commiserate with you 
on that.
    Senator Roberts. As a member of the Fourth Estate myself, I 
do feel your pain and pulse, or whatever. But at any rate, well 
thank you for that. I think a lot of this, Madam Chairwoman, is 
the impact of crop insurance and how it fits in and the 
problems that we have had in regards to crop insurance. And 
being part of the Carey-Roberts Crop Insurance Reform back in 
2002, we need to do that as opposed to cutting crop insurance 
by $12 billion in the last two Farm Bills. That was a terrible 
mistake.
    But then, all right, I am done. I appreciate you all coming 
in. Thank you for your contribution.
    Chairwoman Stabenow. Thank you very much and I could not 
agree more about crop insurance. That is a major focus of our 
discussion and work going forward. Senator Bennet.
    Senator Bennet. First of all, Madam Chair, I want to thank 
you for putting together this excellent panel. Your testimony 
has been terrific and I actually had thought that every single 
one of my questions had already been answered as you testified, 
so thank you.
    And I am grateful that--Mr. Woolley, I had not intended to 
ask a question about this, but since you raised it, two weeks 
ago, I think, or maybe three, I was on a conference call with 
growers from Colorado and they were saying to me, Michael, we 
are going out of business this year because of labor shortages.
    I wonder if you would talk a little bit about your 
observation that immigration is what keeps you up at night and 
what you would like to see fixed.
    Mr. Woolley. Well, we would like to see a way to continue 
to farm using legal labor. The setup now is impossible. It has 
been broken for decades. It is an untenable situation.
    Senator Bennet. Tell us more about why it is impossible, 
why it is broken, and Mr. Abbett, if you want to get into this 
too, please do.
    Mr. Woolley. We cannot get legal labor to come into our 
farm, frankly. The mechanisms to provide labor are just not 
adequate. People do not--people who are documented generally do 
not come out to our farms. We are increasingly reliant on prime 
labor contractors and it is a very fluid situation.
    We accept the documents that are presented to us and we try 
to do a very good job in that, but regardless, there is such 
rapid turnover. We know that some of these people are 
undocumented.
    Senator Bennet. Mr. Abbett, I see you nodding your head.
    Mr. Abbett. Yeah, I agree with him completely. We run into 
the same issue. The regulations around verifying legitimacy of 
our immigrant help has really caused us to rely on crew leaders 
as well. And speaking to the crew leaders, the difficulties of 
getting people from other countries to come here that are 
willing to do the work that has to be done, we cannot do the 
things that we do on our farm without these people. There just 
are not willing people in our communities that do these jobs 
and these people are willing.
    But it is becoming increasingly hard to get those people 
here for fear of crossing the borders, fear of filing out the 
required paperwork properly and I think we have to fix--we have 
to make it possible for us to get folks into this country that 
are willing to do this work in a fluid fashion where they can 
go back to the countries where they come from, but be able to 
come back on a yearly basis and do the work that we desperately 
need done on our farms.
    Senator Bennet. Mr. Wingard?
    Mr. Wingard. Thank you. If I could, I would like to answer 
your question as well. H-2A is expensive and broken. H-2B is 
about to become expensive and broken. What we need is a 
reasonable solution to a serious problem.
    I want to give you--I want to share with you a real life 
experience we had about a year and a half ago. We petitioned 
for 40 H-2Bs to work in my processing plant. We had to 
advertise to U.S. workers. We had 81 people come in and apply 
for the job the first week of January. The job did not start 
until the first week of April, but the first week of January we 
had 81 interviews. Thirty-one people out of 81 took the job.
    So my 40 visas were reduced. As a direct reduction, they 
were reduced to nine, by simple math. Three months go by and 
when we had the processing line installed and the crops had 
been grown and ready to harvest in the field and we called 
these people to come to work, I get my nine visas from Mexico 
into the country. Out of 31 people that took the job, only 13 
showed up the first day of work.
    So the first day we tried to run the line, instead of 
having 40 people to run that processing line, I am only down--I 
only have 22. Within two weeks, the 13 U.S. referrals are down 
to about two, three, maybe four and within six weeks, we were 
down to one.
    At the end of the contract, which is nine months, 10 months 
maybe, we had to let the U.S. referral go because the contract 
was over. We offered them a job because they were really a 
pretty good worker and turned the job down. They wanted to go 
home and get a check.
    There is similar nightmare stories concerning H-2A, maybe 
even worse.
    Senator Bennet. Well, my time is expired, Madam Chair. I 
appreciate everybody's testimony. I think it is so important 
for us to be having this conversation because Washington is 
averting its eyes and pretending this issue does not exist, and 
there is nothing that says that these jobs need to be in the 
United States. And I want them to be in the United States, but 
if we do not fix this problem, my concern is that these jobs 
are going to migrate over this border and we are never going to 
get them back again.
    So thank you for being here today. Thank you for your 
testimony. Thank you, Madam Chair.
    Chairwoman Stabenow. Thank you very much. This is a serious 
challenge. Senator Lugar.
    Senator Lugar. Mr. Abbett, in your original testimony, you 
had to summarize some very complex points, so I wanted to give 
you an opportunity to expand a bit on this. It has been 
illustrated already. You are farming 4,300 acres and that 
includes corn and soybeans and crops that are very common, 
certainly in our State of Indiana, but likewise 650 acres or so 
of tomatoes.
    What are the problems? I sort of glossed over this because 
it is very complex for somebody just to sign up to get acres in 
the tomato program, that it affects a so-called base that we 
have been talking about. You have indicated, if you are 
successful in signing up with tomatoes, it actually saves 
taxpayers' money because you come out from underneath some of 
this.
    But explain, if you will, this procedure and why it is 
cumbersome and why we ought to reform it.
    Mr. Abbett. Thank you for the question. Prior to 2002, the 
procedure was extremely difficult because we--I mean, I am 
sorry. After 2002, prior to 2008, the procedure was very 
difficult because in the State of Indiana, when soybeans became 
a program crop, there virtually was no acres available outside 
of my own producer history and my farm's history.
    And my farm's producer history, which at one time included 
my dad, was severely hit when he left the farming business, or 
the vegetable side of the farming business. And therefore, I 
was left with a very minimal number of producer acres to raise 
my specialty tomato crops.
    Senator Lugar. Why would your dad leaving make any 
difference?
    Mr. Abbett. He had producer history tied to his Social 
Security Number.
    Senator Lugar. Personally?
    Mr. Abbett. Personally, in his personal name, and when he 
left the operation, those producer history acres left with him.
    Senator Lugar. I underline that because most of us do not 
understand, you have a death in the family or somebody decides 
to go abroad or so forth, suddenly you lose this history and 
therefore, you lose the ability even to produce on your land.
    Mr. Abbett. Yeah, that is the key to the whole problem. As 
people retire--in one instance, I had a fellow grower that was 
killed. Those acres are lost forever. The acres available are 
shrinking every year; that is a fact. The pilot program helped 
fix that problem to a certain extent.
    There are still some issues with the pilot program that we 
deal with, the deadline, the fact that landlords have to sign 
on and the fact that there is a lottery system in the event 
that you go through the acres or more acres than what are 
allotted for the state.
    But the pilot program was a big success in giving us the 
flexibility to plant our fruits and vegetables on base acres. 
It allowed me to go out and find farms that were 
environmentally advantageous, that were better farms to raise 
tomatoes on and gave my land that I had to rotate on hard 
ability to rest and that minimizes disease.
    So the flexibility, the project flexibility has been a huge 
success on my farm.
    Senator Lugar. Let me just interrupt to say, it is almost 
inconceivable in the common sense of the American public that a 
farmer would not be able to plant tomatoes or beans or corn or 
what have you on his land without these cumbersome restrictions 
and all sorts of provisos, including the death of a member of 
the family and so forth.
    Quite apart from the fact made by the Chairman and the 
Ranking Member, that crop insurance really has not covered 
everything on the farm. It has not been whole farm insurance. 
It has been a crop or a specific situation. This is why I am 
hopeful, and this is why the testimony is important of all of 
you today.
    As we get into the new Farm Bill, we understand that there 
are many ways of making money on a farm and that we ought to 
have maximum freedom for farmers to be able to use their 
enterprise and to meet markets, both at home and abroad, as 
opposed to having these historical situations going on all the 
way back to the thirties that have no relevance whatever, 
except on occasion, vested interest who really want to keep 
restrictions because they are hoping to hang on to some 
particular privilege.
    Your story, I think, is extremely important, as you are a 
practicing farmer now on 4,300 acres and obviously honored by 
the trade. But I am hopeful that your full testimony will be a 
part not only of our record, but likewise of the education of 
our colleagues as we proceed into the Farm Bill.
    I thank you very much, Madam.
    Mr. Abbett. Thank you.
    Chairwoman Stabenow. Thank you very much. Senator 
Klobuchar, welcome.
    Senator Klobuchar. Thank you very much, Madam Chairwoman. I 
would like to start by thanking you for holding this important 
hearing on organic and specialty crops. We have a number, I 
think people may know, we have major crops. We are sixth in 
agriculture. We also produce a number of specialty crops. We 
are first in sweet corn and green peas. Perhaps you have heard 
of the Jolly Green Giant. I grew up in the shadow of the big 
Jolly Green Giant and we support rural jobs at processing 
plants and companies like Seneca Foods, located in Glencoe, and 
Del Monte foods in Sleepy Eye, Minnesota.
    I had a question, first of all, of you, Mr. Engelhard, and 
this is about the testimony that you gave about the Pulse 
Health Initiative and the major challenges you believe pulse 
crops can address and overcome, including obesity and chronic 
disease. We believe living a healthy lifestyle on this 
Committee is incredibly important and in the U.S., as you know, 
sadly approximately 34 percent of adults, 17 percent of 
children are obese.
    And my question is how you think continued research on the 
health benefits of pulses would help kids to be less obese to 
lose weight, and do you think pulses have a place in school 
cafeterias or in the Farm to School Program, providing healthy 
foods to school cafeterias?
    Mr. Engelhard. Absolutely. You know, pulses are so diverse. 
Edible beans are very colorful. Everybody has their own likes, 
dislikes with edible beans and the key is to find really good 
ways to put those things on the plates of our kids when they 
are young and get them used to them.
    For so long we have grown up in a society of fast prepared 
foods and meat has been seen as a symbol that we are doing 
well. We can go out and--economically that we can go out and 
buy meat. And that is great. We all love beef. We all love our 
chicken and so forth.
    But when we really look at what the best way is to get 
protein into our bodies, pulse crops provide a very good 
option. And then when you look at the economics of using pulses 
in our schools and in our cafeterias, using edible beans in 
creative new recipes, there is just an unlimited opportunity 
there to enhance the economics.
    And then finally, you know, when we think about how can we 
be environmentally friendly, pulses produce their own nitrogen. 
I alluded to the small water foot print that it takes to grow 
edible beans, peas and lentils and chick peas. And some of 
those things are so opportunistic for our country to make us 
healthier and also to make us more environmentally friendly.
    Senator Klobuchar. Thank you. And then I have one last 
question, Mr. Abbett. The 2008 Farm Bill allowed a voluntary 
farm flexibility program that allowed farmers to produce fruit 
and vegetables for processing without any punishment. And you 
mentioned that the pilot project with specific acreage limits 
had a significant hassle factor in annual--by the way, I have 
never used that word. It is kind of fun. I will use it again--
significant hassle factor in sign up and how do you think 
removing the acreage cap could further encourage the production 
of fruit and vegetables for processing?
    Mr. Abbett. Great question. Thank you for asking it. The 
issue came about when I first attempted to sign up in 2009 
where I became knowledgeable that in the event that there were 
more than, I think 9,000 acres, asked for in the State of 
Indiana, there would be a lottery that would choose those 
acres.
    So I was put in a position where I would go--where I needed 
to go to landlords and say I would like to raise fruits and 
vegetables on your land. I would like to pay you a fair rent 
for that, but I cannot guarantee that is going to happen, and 
by the way, it is a lottery that is going to decide whether 
that can happen. And it may be I do not know exactly when the 
lottery occurs and it may be April before I can come to you and 
say, sorry, we did not make the lottery and therefore, I cannot 
put fruits and vegetables on your property and I am going to 
have to move them back onto my farm where I have history.
    So that was a huge constraint, or that caused real issues 
getting--having me have desire to use the pilot program in the 
first years, worrying about whether or not I was actually just 
going to get a bad name in the community for going out and 
trying to rent property that I eventually could not rent 
because of the lottery system.
    Senator Klobuchar. Okay, well, very good. Hopefully we can 
try to fix this, so I appreciate it. Thank you.
    Chairwoman Stabenow. Thank you very much. Senator Boozman.
    Senator Boozman. Thank you, Madam Chair. I know that the 
risk management tools have come up and I think all of us are 
committed to working hard to try and reform and improve those 
for all segments of agriculture, the Farm Bill, comes about.
    Mr. Bencal, you expressed the importance of passage of H.R. 
872, the Reducing Regulatory Burdens Act of 2011, prior to 
October. We passed that in this Committee. It was passed in the 
House. I appreciate you mentioning it. It is so important. 
Hopefully working together we can get the vote in the Senate 
and actually get that thing passed.
    Mr. Bencal. Thank you, sir. I really appreciate it.
    Senator Boozman. Well, again, thank you so much for 
bringing it up. The only other thing I would say is that the 
area where I live is actually where Walmart's at and the idea 
of encouraging specialty crops where we can encourage entities 
like that that work with our local producers I think is a very 
good thing.
    Hopefully we can work together to encourage others to do 
the same thing. If you would like to comment about that.
    Mr. Bencal. Yeah. In fact Welch's is vice versa. It is 
probably one of Walmart's biggest customers and Walmart is one 
of Welch's largest customers. And as a grape grower through 
National Grape, Walmart, not that they insist, but it is very 
important to them the title of viable agriculture comes up in 
viable viticulture. We have become much more environmentally 
sound in our farming practices, both from a wildlife aspect and 
just plain environment aspect as far as spray drift, nutrition, 
containment and putting--you know, hitting the target that we 
are aiming at, whether it be nutrition wise or pesticide wise 
or otherwise.
    It just gets more and more important. It is funny, because 
years ago when I first started in '73, we used to go out and 
spray our vineyard at 8:00 Friday afternoon, or Friday evening. 
The wind would calm down and you would go out there and you 
would spray and 14 days, 20 days later, you would go out and 
spray again.
    Last year, I believe I--and you carried that on throughout 
the summer. Last year I believe I sprayed twice. This year I 
have sprayed twice and scouting the vineyard before I came down 
here the other day. There is no reason to spray right now.
    So we have come a long way in doing exactly that. The 
registration in New York, I have to be a certified applicator 
in the State of New York. We take an exam to get that 
certification. We have to maintain a certain amount of credits. 
It is renewed every five years and I have to maintain credits.
    We have three to four grower meetings every summer where 
collectively we all get together. An extension team comes down. 
We have set this whole program up through Cornell. Management 
practices are approached. Discussions are coming up, a lot of 
networking going on amongst growers. A lot of discussion goes 
on.
    Senator Boozman. Well, I appreciate that. That really is a 
great story to tell. All of you all work so hard to do the best 
management practices.
    Mr. Bencal. We do not take it lightly.
    Senator Boozman. Very much so. You love the areas that you 
are growing on and have a great respect and are trying to do 
the right thing. Sometimes we make it very, very tough on you. 
I do appreciate you all being here and all that you represent. 
And hopefully working together with the new Farm Bill and stuff 
we can help with some things and also push back on really some 
regulation that I think is very heavy handed and just does not 
do any good for anybody.
    So with that, I yield back. Thank you, Madam Chair.
    Chairwoman Stabenow. Thank you very much. At this point, we 
will conclude the hearing. Let me just indicate again how 
important each of you are to American agriculture, as well as 
the health of our country moving forward. When we look at 
issues of diabetes and obesity and all of the other health 
challenges that we have in the country, the role you play in 
reaching our goals, both for jobs, success in rural America, as 
well as the health of the country, is very important.
    So by providing the tools and technical assistance to 
growers that you need to manage risks, developing market 
opportunities and innovation, we can help to ensure that 
American consumers in schools, families, have access to safe 
and healthy supply of American produce and we can continue to 
create very important jobs for our country.
    So thank you again, to each one of you for coming in, for 
sharing your testimony and we look forward to working with you 
as we move forward to write a Farm Bill. Thank you.
    [Whereupon, at 12:18 p.m., the Committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                             JULY 28, 2011



      
=======================================================================


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

=======================================================================


                         QUESTIONS AND ANSWERS

                             JULY 28, 2011


=======================================================================



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
